<html>
<title> - OVERSIGHT OF UNITED STATES COUNTERNARCOTICS ASSISTANCE TO COLOMBIA</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   OVERSIGHT OF UNITED STATES COUNTERNARCOTICS ASSISTANCE TO COLOMBIA
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 14, 1997
                               __________

                            Serial No. 105-7
                               __________

Printed for the use of the Committee on Government Reform and Oversight







                     U.S. GOVERNMENT PRINTING OFFICE
39-818                       WASHINGTON : 1997
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN H. SCHIFF, New Mexico         EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK SOUDER, Indiana                 THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            BOB WISE, West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN McHUGH, New York                ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVE LaTOURETTE, Ohio               JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
              Ronald Stroman, Minority Professional Staff










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 1997................................     1
Statement of:
    Busby, Morris, former Ambassador to Colombia; and Major F. 
      Andy Messing, Jr., United States Army (Ret.), executive 
      director, National Defense Council Foundation..............    80
    Gelbard, Robert S., Assistant Secretary, Bureau of 
      International Narcotics and Law Enforcement Affairs, 
      Department of State........................................     4
    Serrano, Major General Jose Rosso, director, Colombian 
      national police; and General Harold Bedoya Pizarro, 
      commander, Colombian Armed Forces..........................    51
Letters, statements, etc., submitted for the record by:
    Bedoya Pizarro, General Harold, commander, Colombian Armed 
      Forces, prepared statement of..............................    63
    Busby, Morris, former Ambassador to Colombia, prepared 
      statement of...............................................    83
    Gelbard, Robert S., Assistant Secretary, Bureau of 
      International Narcotics and Law Enforcement Affairs, 
      Department of State:
        Information concerning assistance furnished under the 
          authority of section 506(a)(1) of the FAA..............    48
        Information concerning extraditions......................    47
        Information concerning ``river patrol boats''............    50
        Prepared statement of....................................     8
    Messing, Major F. Andy, Jr., U.S. Army (Ret.), executive 
      director, National Defense Council Foundation:
        NDCF Colombia Report 1997................................    95
        Prepared statement of....................................    91
    Serrano, Major General Jose Rosso, director, Colombian 
      national police, prepared statement of.....................    55
    Valdivieso, General, prepared statement of...................    70













  OVERSIGHT OF UNITED STATES COUNTER-NARCOTICS ASSISTANCE TO COLOMBIA

                              ----------                              


                       FRIDAY, FEBRUARY 14, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Schiff, Mica, Souder, 
LaTourette, Barr and Barrett.
    Staff present: Robert Charles, staff director and chief 
counsel; Sean Littlefield, professional staff member; Ianthe 
Saylor, clerk; Ronald Stroman, minority professional staff; and 
Ellen Rayner, minority chief clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    First of all, I want to bid everyone good morning and thank 
you for coming today. This is the subcommittee's first hearing 
of the 105th Congress. This is also my first hearing as 
chairman of this subcommittee. I think we have our work cut out 
for us, especially what we are going to talk about today, the 
drug war, in this country, in our southern hemisphere, and, of 
course, in the world.
    The drug usage rates of our young people clearly show the 
drug war must continue. Frankly, that is why we are here today.
    I want to pause long enough to welcome all our new members 
and our returning members and to extend a special welcome to 
our ranking member, Mr. Tom Barrett. I look forward to working 
with Tom and developing a very, very fine relationship. I hope 
over the next 2 years in the many important oversight 
challenges we face that we can do it together on a bipartisan 
basis.
    The title of today's hearing may lead one to believe that 
this hearing is only about Colombia. It is certainly about the 
heroic efforts of certain Colombians in the drug war, including 
General Serrano, General Bedoya and Prosecutor General 
Valdivieso; but it is also about the youth of America, our 
children, and, frankly, our future.
    In the last 3 years, six homicides in Aurora, IL, the town 
of my birth and the town I represent, have been drug related. 
As recently as June, Claudia Remos and Juan Medina were killed 
and their bodies dumped on a road side. Six-year-old Nicholas 
Contreras was shot and killed in his sleep in a drug-related 
crime. We must stop the effect of drugs in our country.
    The overwhelming majority of the cocaine and heroin that 
leaves Colombia is headed straight to cities and towns like 
Aurora, IL; and the target population for the growing and 
diversifying drug cartels is mainly our youth. The 
international drug onslaught is the most insidious national 
security threat we face as a Nation. This is why it is so vital 
that we provide ample counternarcotic support to the brave and 
honest men and women who work hard in the drug war in this 
country and in Colombia. Those individuals are fighting not 
only for Colombia's survival but also for ours.
    The timing of this hearing, just weeks prior to the annual 
recertification decision by the President, is not a 
coincidence. I am concerned that last year's decision to 
decertify Colombia impeded foreign military sales to Colombia. 
If the President decides to decertify Colombia for the second 
year in a row, I am at least hopeful that he will present 
Congress with the legislation that will allow the military 
sales for the limited purpose of counternarcotic missions.
    I also plan to work with the Department of State and the 
Committee on International Relations to find a way to expedite 
the transfer of these tools that are needed to fight this war. 
Every day that a DC-3 or a Huey or Black Hawk helicopter is not 
flying, more drugs reach our streets. We cannot afford to have 
any more delays in the transport of equipment or spare parts in 
our counternarcotics support for Colombia.
    International drug trafficking organizations based in 
Colombia are the world's leading producers of cocaine. 
Colombian traffickers also continue to supply marijuana to the 
United States, and recent indications are that Colombian drug 
trafficking organizations are making quantum leaps in the 
production and trafficking of heroin.
    Colombia is engaged in a drug war, and its outcome affects 
all Americans. Some of the bravest men and women in the world 
are entangled in a war against the narcotraffickers and the 
guerillas that support them.
    There should be no mistake. The guerillas of Colombia long 
ago abandoned ideology. They work with the international drug 
traffickers--providing security, cultivating crops and manning 
cocaine labs. The guerillas engage in some of the most ruthless 
behavior in our hemisphere. They kidnap, they kill, and they 
sustain their carnage with drug money provided by American 
consumers, most of them kids.
    Today's hearing will focus on what the United States can 
and should do to generally support the counternarcotics efforts 
in Colombia to stop these deadly drugs and violent drug 
traffickers before they get to the United States shores.
    Let's lay it on the line. There can be no doubt that 
Colombia's political and judicial systems are confronting 
corruption. Sentences for drug traffickers need to be 
strengthened, and a re-examination of money laundering and 
extradition needs to take place now.
    However, honest Colombian Government officials like General 
Bedoya and General Serrano should be applauded and certainly 
fully supported. How can we ask honest Colombians like these 
men to continue putting their lives on the line every day 
without basic United States support for the international drug 
effort? The truth is that such support is both good government 
and cost-effective to us at home in the United States.
    Before proceeding with our first witness, I am pleased to 
turn to my colleague, the subcommittee's ranking minority 
member, Tom Barrett of Wisconsin, for any opening remarks he 
might have.
    Mr. Barrett. Thank you, Mr. Chairman, and congratulations 
on heading this subcommittee. I am looking forward to working 
with you, and I am very optimistic that we will be able to work 
closely on a lot of these issues which are basically 
nonpartisan in nature. I think that this committee plays an 
important role; and, as evidenced by the hearing today, this is 
a committee that will look into issues that have tremendous 
importance to our country.
    The issue of drug trafficking in America is clearly one of 
the most serious issues we face as a Nation; and, as the father 
of three young children, I share with you the concern of easy 
access of drugs to American youth and will do everything I can 
to make sure we have the tools necessary to combat drug use 
both internationally and domestically.
    The cost to our society of illegal drug use is staggering. 
Substance abuse and addiction cost is now estimated at $400 
billion a year. Two million Americans use cocaine at least once 
a week, and 500,000 are addicted to crack cocaine.
    Colombia has a close relationship to this problem, because 
the threat to the United States from Colombia is significant. 
Eighty percent of the cocaine available in the United States is 
produced in Colombia, and 60 percent of the heroin being seized 
in the United States can be traced to Colombia.
    This is a timely hearing since the administration will be 
making many important decisions in the future, including the 
very important issue of whether to continue decertification of 
Colombia. I am very excited and very interested to hear from 
our witnesses today because I think this issue of how we deal 
with a foreign government and how we deal with the drug problem 
in another country is a very thorny issue; and I think all of 
us agree that we, as a country, have to do everything we can to 
stop the drug trafficking from Colombia and other countries but 
also make sure we are doing it in a prudent way.
    So I look forward to this hearing and turn it back over to 
you.
    Mr. Hastert. At this time I would ask, without objection, 
that all opening statements be submitted for the record. Any 
objection? So ordered.
    I would like now to welcome Assistant Secretary of State 
for International Narcotics and Law Enforcement Affairs, 
Ambassador Gelbard. Ambassador Gelbard has been involved in our 
foreign relations with Latin America since his service with the 
Peace Corps. In addition to his assignments to European and 
African issues, Ambassador Gelbard served as Ambassador to 
Bolivia from 1988 to 1991, and most recently is the Principal 
Deputy Assistant Secretary of State for Inter-American affairs. 
I think probably when you find a tough place to deal with, 
Ambassador Galbard tends to be there; and it shows the great 
confidence our administration has in him.
    Ambassador, we are pleased to have you here. If you would 
stand and raise your right hand, the committee's rules require 
me to swear you in.
    [Witness sworn.]
    Let the record show the witness responded in the 
affirmative. Thank you.
    Please proceed with your opening statement. I assume you 
have an oral statement. Anything else will be submitted for the 
record.

STATEMENT OF ROBERT S. GELBARD, ASSISTANT SECRETARY, BUREAU OF 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
                            OF STATE

    Mr. Gelbard. Thank you, Mr. Chairman.
    Please let me also congratulate you on your chairmanship. I 
think it is worth stating that, thanks to your efforts, in 
addition to some others, the budget for my bureau dedicated to 
counternarcotics and anti-crime measures throughout the world 
was substantially increased for this fiscal year; and I 
appreciated your efforts very much, sir.
    As you said, sir, I do have a written statement that I 
would like to submit for the record. I am pleased to have this 
opportunity to discuss with you the United States 
counternarcotics policy toward Colombia.
    President Clinton denied certification to Colombia last 
year because the efforts of Colombia's honest officials were 
being undermined by corruption at the highest levels of the 
Colombian Congress and Government. Our challenge was to 
maintain pressure on a president we believe to have been 
influenced and even corrupted by traffickers, while also 
supporting constructive Colombian anti-drug efforts.
    The strategy has produced progress on some of our key 
objectives over the last 12 months. We have maintained support 
for essential counternarcotics programs and institutions in 
Colombia. In fact, from fiscal year 1996 to fiscal year 1997, 
we have doubled our assistance, most of which is destined for 
the Colombian national police.
    At the same time, we pressed the government to take 
specific policy and legislative actions to strengthen the law 
enforcement and judicial sectors. These include strengthening 
money laundering laws and enacting tough asset forfeiture and 
sentencing laws; extradition of Colombian nationals wanted for 
crimes abroad; supporting investigations and prosecutions 
targeting corrupt public officials; stepping up coca 
eradication and opium eradication; agreeing on a bilateral 
maritime agreement; continuing law enforcement and judicial 
action against traffickers, along with their prosecution, 
conviction and sentencing to prison terms commensurate with 
their crimes; dismantling of their organizations; and 
forfeiture of their front companies and ill-gotten proceeds.
    These objectives should not have come as a surprise to the 
Colombian Government. In 1994, shortly after his election, 
President Samper promised to increase the penalties for drug 
traffickers, remove plea bargaining loopholes and send the 
political cronies of the cartels to jail. In fact, he put these 
promises as well as many others in a letter he sent to Members 
of the U.S. Congress.
    Instead of following through, however, Samper publicly 
attacked the Prosecutor General's Office for its far-reaching 
investigation of political corruption known as the ``Case 
8,000.'' An investigation in which he himself was implicated as 
well as other top administration and congressional figures. 
Despite credible evidence that his political campaign had 
accepted more than $6 million in drug money, President Samper 
was exonerated by the Colombian Congress through a patently 
flawed process.
    From our standpoint, however, the evidence that Samper 
aided and abetted drug traffickers was sufficient to warrant 
the revocation of his visa last year. The denial of 
certification, international pressure and the threat of 
economic sanctions has produced some progress on key 
legislation, a maritime agreement this year and expanded the 
eradication program.
    The Government of Colombia has failed, however, to follow 
through on promised counternarcotics action or to confront 
fully the drug interests that contributed millions of dollars 
to President Samper's campaign. In concrete terms, the 
Colombian Government effectively ignored United States warnings 
that the Cali kingpins continued to run their operations from 
prison.
    In late January, a few weeks ago, top drug lords Gilberto 
and Miguel Rodriguez Orejuela were sentenced to absurdly short 
prison terms, accompanied by ridiculously small fines. Given 
the mandatory sentence reductions under existing Colombian 
sentencing guidelines, these international criminals could 
ultimately serve only 4 or 5 more years apiece in prison.
    If President Samper had acted promptly on his own 1994 
commitments that he put in writing to this Congress, these 
sentences might have reflected the seriousness of their crimes. 
In stark contrast to the Colombian sentences, a United States 
Federal judge on January 31st of this year sentenced Mexican 
drug lord Juan Garcia Abrego, a long-time associate of the 
Rodriguez Orejuelas, to 11 life terms, a fine of $128 million 
and forfeited assets worth $350 million. Interesting contrast.
    Despite the obvious inadequacy of Colombia's law, the 
Samper administration has made so serious an effort to 
reinstate the case for reinstatement of extradition or to 
launch a constitutional reform initiative.
    We will hold the Government of Colombia to the promise its 
new Ambassador just made to President Clinton when he presented 
his credentials that the government will introduce such a bill 
next month. Meanwhile, our request for four top Cali 
traffickers have gone unanswered, and we have learned that the 
government has never filed them in the Colombian Supreme Court 
as promised.
    The asset forfeiture law passed in December is a good one. 
However, the legislation must stand a review of the 
constitutional court, a test which some Colombians observers 
believe the law was designed to fail. Moreover, the first 
attempt at implementation of the law failed when the hold on 
assets placed in the names of the family and friends of the 
Rodriguez Orejuela brothers was lifted at the time of their 
sentencing.
    We can only judge the Colombian Government by its concrete 
actions. As recently as late last year, while the investigation 
and trial of the Cali kingpins was under way, Samper and 
Interior Minister Serpa were actively pursuing negotiations 
with the Cali mafia kingpins, which clearly would have 
undermined the efforts of the Colombian police and the 
Prosecutor General's Office. This revelation was merely another 
reminder that President Samper's commitment to take on the top 
traffickers must be evaluated on the basis of specific results 
rather than on stated intentions.
    While failing to address certain issues, the Samper 
administration sought to recover international legitimacy by 
improving cooperation on other fronts, including its agreement 
to the United States-funded expansion of the coca crop 
eradication and its initialing, several weeks ago, of a 
maritime interdiction agreement.
    Private sector leaders have begun to press the government 
to pass key legislation, and Colombian industry has sought more 
direct cooperation with the United States to counter the drug 
trade. The Colombia Flower Growers Association has taken a 
particularly courageous stand in favor of the asset forfeiture 
law and extradition.
    Unprecedented application by the President of the 
International Emergency Economic Powers Act against the Cali 
mafia front companies also stimulated the private sector, and 
particularly the private bankers association, to implement 
tighter voluntary controls over its members.
    At the operational level, our counternarcotics cooperation 
with the Colombian national police and its leader, General 
Serrano, the Prosecutor General's Office and the elements of 
the armed forces remain very good. In the past year, we doubled 
our assistance to Colombia from $22.6 million to some $44 
million this fiscal year to support interdiction law 
enforcement and eradication operations. Part of this increase 
will be devoted to purchasing nonlethal military equipment and 
spare parts.
    We also have dramatically increased our aviation support to 
the Colombian national police, including the provision of 12 
additional helicopters and the use of additional spray and 
support aircraft. We will soon deploy five upgraded spray 
aircraft worth $84 million by the end of next month and 12 more 
UH-1H helicopters associated with the President's 506(a)(2) 
drawdown package. We have also allocated for the first time 
funds to support the army and the rest of the armed forces in 
counternarcotics efforts.
    Combined police-military interdiction efforts in 1996 
focused on denying drug cultivators and processors the 
chemicals used to process cocaine. This effort produced a 
substantial increase in precursor chemical seizures and in the 
number of laboratories destroyed. At the same time, the shift 
in focus of interdiction operations and the devotion of more 
resources to the eradication program resulted in a significant 
drop in the seizure of drug trafficking aircraft, cocaine, and 
heroin as compared to 1995.
    We have worked more closely than ever with the Colombian 
police to carry out a much-enhanced aerial eradication program. 
Our expanded aerial eradication program in 1996 presented 
significant challenges which the Colombian police have accepted 
without hesitation. The military also rose to this challenge, 
increasing their support to the police eradication effort.
    However, despite the clear commitment of the Colombian 
police to the eradication program, the Colombian Government has 
strongly opposed the testing of safe granular herbicides, such 
as hexazanone, which we know to be significantly more effective 
in killing coca than the current herbicides being used.
    Colombia's coca crop expanded by over 30 percent last year. 
This is in contrast to Peru, where there was an 18 percent 
decrease. It expanded from almost 51,000 hectares to over 
67,000 hectares, in spite of our efforts to expand the 
eradication program and make it more effective. Cultivation 
increased by 13 percent between 1994 and 1995 and has also 
tripled since 1987.
    Colombia now provides 32 percent of all coca produced in 
the world. This continued expansion points to one of the 
greatest challenges Colombia and we together face in stamping 
out the drug trade.
    The crop has been steadily expanding since 1987, and we 
must recognize the decisive role played by some of Colombia's 
insurgent guerilla groups. They identified an economic 
opportunity--the insatiable desire of drug traffickers for a 
reliable source of cocaine products--and carved out a 
significant portion of that market for themselves.
    The increased self-sufficiency of Colombia's drug industry 
has significant implications for our efforts to eliminate this 
scourge. Those guerilla fronts engaged in the industry now have 
a proven source of income and a vested interest in expanding 
and protecting the trade. These guerilla fronts constitute a 
real threat to Colombian anti-drug forces deployed to eradicate 
fields and the American personnel who support them, including, 
sadly, the loss of one American life late last year.
    In this environment, Colombian counternarcotics cooperation 
and the government's clear support of its own police and 
military, prosecutors, judges, and other government officials 
on the front line of this struggle are more important than 
ever. We have implemented a strategy that is producing some 
progress on key legislation, and that has galvanized the 
private sector in taking a more active role in pressing for 
action. We have seen results clearly from decertification last 
year.
    We must continue to provide a high level of direct support, 
assistance and encouragement to those in Colombia dedicated to 
ending this drug scourge and the corruption it has engendered. 
Above all, we must continue to make clear to the Colombian 
Government that the American people expect concrete results.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gelbard follows:] 
    [GRAPHIC] [TIFF OMITTED] T9818.001
    
    [GRAPHIC] [TIFF OMITTED] T9818.002
    
    [GRAPHIC] [TIFF OMITTED] T9818.003
    
    [GRAPHIC] [TIFF OMITTED] T9818.004
    
    [GRAPHIC] [TIFF OMITTED] T9818.005
    
    [GRAPHIC] [TIFF OMITTED] T9818.006
    
    [GRAPHIC] [TIFF OMITTED] T9818.007
    
    [GRAPHIC] [TIFF OMITTED] T9818.008
    
    [GRAPHIC] [TIFF OMITTED] T9818.009
    
    [GRAPHIC] [TIFF OMITTED] T9818.010
    
    [GRAPHIC] [TIFF OMITTED] T9818.011
    
    [GRAPHIC] [TIFF OMITTED] T9818.012
    
    Mr. Hastert. Thank you very much for your testimony. I 
think we understand very clearly why the administration used 
the tool of decertification to try to move the Government of 
Colombia into areas that they seem to lack and should be 
improved upon, but after President Clinton announced Colombia's 
decertification on March 1, 1996, it seems to me that there was 
a lack of the State Department's perception of what effect 
decertification would have on assistance programs. As a matter 
of fact, the State Department did not announce their decision 
that only foreign military financing was prohibited and that 
foreign military sales were not, which involved some of the 
spray planes and the helicopters and some of the things that 
were necessary to make those, that equipment fly.
    From March until September, the State Department prevented 
all assistance from reaching Colombia, and only in September 
did the State Department announce that FMF, or financing, and 
not sales assistance was blocked by decertification. Can you 
help us or enlighten us as to why that decision to decertify 
was taken when no one seems to have understood, basically, the 
ramifications, at least in the movement of equipment, to 
General Serrano and others that needed that equipment after 
decertification?
    Mr. Gelbard. The President made the decision to decertify 
Colombia because there was a clear unwillingness on the part of 
the Government of Colombia to cooperate with the United States 
in counternarcotics efforts. All indicators were very clear in 
their failure to comply with the commitments that Samper 
himself had made, as I mentioned earlier, to the Congress of 
the United States, in an unsolicited letter he sent in July 
1994.
    Just running through the various commitments he gave made 
it very clear they did not comply. So it was a clear-cut 
decision that the President made. It was a difficult decision 
because it was the first time a President of the United States 
had ever decided to decertify a democratic government, but it 
was based on the unanimous recommendations of the President's 
relevant Cabinet members to him.
    The decision to decertify did not in any way affect the 
support provided to the police. It did not in any way affect 
that support, I want to be very clear. Nor did it affect this 
provision, the provision of spray planes, for example, which 
are flown by the Colombian police. Now, because the spray 
program was stalling, we have provided, with the agreement of 
the Colombian Government, American pilots to spray and to 
train, while they are spraying, Colombian pilots in what is a 
very difficult endeavor.
    However, the clear-cut interpretation of the law, the 
Foreign Assistance Act, was that under decertification it was 
not possible to provide military assistance to the Colombian 
armed forces under FMF and FMS. We supported efforts in the 
Congress to change that law last year, and unfortunately, the 
Congress was unable to vote in favor of that change. We 
continue to support a change in that law so that we could 
provide FMF and FMS assistance to the Colombian armed forces.
    Nevertheless, what I am doing in this fiscal year, as I 
mentioned in my testimony, is for the first time providing 
funding to the Colombian military from my own budget; and we 
have in our Congressional presentation for fiscal year 1997 
budgeted $5 million to support their counternarcotics efforts 
out of the $44 million that is currently in the budget.
    Mr. Hastert. Well, let's just try to clear some things up 
here.
    As you well know, I was in Colombia last year, last spring, 
and met with the Ambassador and tried in a limited period of 
time to see what the operation was, and I had a meeting with 
General Serrano and others. It seems to me that was the time, 
right after that decision was made, early April, the decision 
was made in March, the decertification decision, due to the 
judgment of the State Department lawyers, and others did delay 
critical counternarcotics aid under FMS. Is that right or not?
    Mr. Gelbard. It wasn't just State Department lawyers, it 
was Pentagon lawyers and Department of Justice lawyers; and 
with all due respect to the lawyers on the committee--I am not 
one--I too was quite frustrated by the lack of movement and 
decision on this. But as a result, we did support the desire to 
change the law. As I say, we were quite frustrated by the 
inability to do so.
    Mr. Hastert. So there was a delay in the movement of the 
equipment.
    Mr. Gelbard. To the military, not to the police.
    Mr. Hastert. The police--well, let's work on it. We will 
hear testimony later and certainly try to clear that up.
    Also, in your opinion, the police--General Serrano was 
complying, and he happens to be the lead commander in beating 
back the narcotics traffickers in my opinion and I think many 
other opinions. Do you feel he had all the assistance he 
needed?
    Mr. Gelbard. We have strongly supported General Serrano, 
whom I have known for all the time he has been in his job, even 
before he was promoted to this position. I strongly supported 
his being named to this position and urged the Government of 
Colombia to appoint him. We have worked very closely with him 
to try to provide everything we could. Unfortunately, the 
Government of Colombia itself has significantly reduced the 
budget of the military and the budget of the police, so they 
have decreased their support to these entities.
    Mr. Hastert. Well, I think it is our purpose here to 
certainly try to work together, and we are not trying to find 
any indictments of the past. We are trying to find how we can 
work through this thing in the future.
    As you well know, and in my opening statement, not giving 
these people the tools to do the job means there are more drugs 
and more death in our districts here in the United States, and 
certainly we want to find that solution and that answer. It is 
encouraging in your testimony hearing you say that you are 
suggesting and advising an increase in that budget; is that 
correct?
    Mr. Gelbard. It is more than suggesting and advising. We 
have targeted $44 million of support to Colombia to the 
military and police in this fiscal year, and that was what was 
provided to the Congress in our congressional presentation 
for----
    Mr. Hastert. For this coming fiscal year.
    Mr. Gelbard. Yes, sir.
    Mr. Hastert. I will yield my time to the gentleman from 
Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman.
    Ambassador Gelbard, you stated your frustration with the 
delays in getting assistance to the military. I look at 
something that happened under the first decertification 
process. If Colombia is decertified again, will we face a 
similar problem, or was that the result of a first-time 
decertification?
    Mr. Gelbard. We are working and would like to work with 
this Congress to work together in a very cooperative way to 
effect the kinds of changes that I mentioned earlier to permit 
the transfer of such equipment in FMF and FMS cases.
    Mr. Barrett. So the decertification measure still provides 
barriers to you in what you think you should be doing.
    Mr. Gelbard. Yes, sir. Let me just say, the legislation 
which would have amended the law was defeated in the final days 
of the last Congress, so that's why we are not able to move the 
equipment under those cases.
    Mr. Barrett. Specifically what would that legislation do?
    Mr. Gelbard. That would provide waiver authority so that 
the administration would have the authority to approve such 
cases.
    Mr. Barrett. I assume there will be some who would argue 
that, lacking that authority, we should not decertify. What are 
the benefits of decertification even without the ability to 
move that military?
    Mr. Gelbard. As I alluded to earlier, it is crystal clear, 
very sadly, that the Colombian Government under President 
Samper took very little action from the time he was sworn in on 
August 7, 1994, until March 1, 1996, when they were 
decertified.
    We have seen significant efforts in the last year to make 
progress, both right before the decertification decision and, 
oddly enough, in the last few weeks. The maritime interdiction 
agreement was just initialled a few weeks ago. The asset 
forfeiture agreement was just approved in late December, and 
there will be a special session of the Colombian Congress 
opening up next week to consider, finally, a much harsher 
sentencing law. This is clearly because of their concerns about 
possible decertification again. It's a sad story that there's 
only a positive response under threat or when there is actually 
decertification, but we have seen in the face of this 
corruption that that is the only thing that has produced 
results from the government itself.
    Mr. Barrett. My sense, from the questioning of the chairman 
and others, on this issue is that the transport of military 
equipment is the issue here. Is that correct or are there more 
issues underlying the issue of decertification?
    Mr. Gelbard. That has not been--that has been an adverse 
consequence of decertification.
    The other adverse consequences are that under the law there 
is a prohibition of the use of OPIC and Eximbank financing to 
countries that are decertified. We obviously don't like that 
because that hurts American companies. It hurts their 
competitiveness overseas. But in terms of all the rest of the 
consequences of decertification, we feel it has proved helpful, 
sadly.
    Mr. Barrett. OK. Again, if we were to put together the 
perfect policy for you so as to provide you with the best tools 
for fighting drugs in Colombia, would that entail--and I assume 
from your comments that at a minimum the administration is 
leading toward decertification again--but would decertification 
plus a change in the law, would that, do you think, make this a 
more effective battle?
    Mr. Gelbard. This has been, in fact, a relatively small 
part of the total amount of assistance provided to Colombia, so 
overall we don't feel that it's had an overwhelming effect.
    One important positive element that I should mention is 
that General Bedoya is now willing to dedicate Army units just 
to programs involving counternarcotics. That was not the case 
before in the Colombian military with his predecessors. One of 
the restrictions we have had in my own budget has been that our 
assistance has to go 100 percent for counternarcotics, it can't 
go for multiple purposes.
    General Bedoya and I discussed this just last night, and on 
the basis of this, we already, as I said, had budgeted $5 
million in assistance for the Colombian military outside of the 
FMF, FMS issue. So we can provide assistance to them that way.
    Mr. Barrett. If you again could just go over the level of 
assistance and the changes, that would be helpful to me.
    Mr. Gelbard. This fiscal year we are increasing commodities 
to the Colombian police--aircraft parts, tools, avionics, field 
investigative equipment--from $7.4 million to $12.6 million. 
Training is at $1.5 million. Aircraft operations and so on are 
doubling from $4.1 million to $8 million. Military assistance 
would involve $2.5 million in commodities, $1 million in 
training and $1.5 million in other programs.
    Judicial sector reform, we are now picking up support for 
this very important program of $250,000, and we're providing 
aviation services. We will be providing aviation programs at 
$14 million, and in addition, new equipment this year involving 
UH-1H helicopters valued at $10.8 million, Bell 212 helicopters 
valued at $9 million, and OV-10 Bronco aircraft valued at $84 
million. So actually that is a total of $147.8 million.
    Mr. Barrett. How does this compare to other countries?
    Mr. Gelbard. Far and away greater in terms of equipment and 
support to the interdiction law enforcement authorities.
    Mr. Barrett. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hastert. Just a quick followup. That's for this coming 
fiscal year; is that correct?
    Mr. Gelbard. The current fiscal year, sir.
    Mr. Hastert. Let me just--another quick followup. The 
President could have had a 614 waiver; is that correct?
    Mr. Gelbard. The President theoretically could. We are 
studying that possibility right now.
    Mr. Hastert. Thank you. The vice chairman of this 
subcommittee, Mr. Souder from Indiana.
    Mr. Souder. Good morning. I've got a couple of questions. I 
thought I heard you say a minute ago that the Colombian 
Government had reduced support for the national police and 
General Serrano.
    Mr. Gelbard. General Bedoya told me that the budget 
provided to the armed forces and the police has been 
significantly reduced.
    Mr. Souder. Do you know what, when you say significantly?
    Mr. Gelbard. I would suggest you ask him when he appears.
    Mr. Souder. OK, because one of the core questions that's 
hard for a lot of people to understand here is, we have a 
democratic government in Colombia, and yet you are praising the 
national police, you are praising the attorney general, you are 
praising to some degree the military of Colombia, saying they 
are fighting with us, they have been courageous, they have 
obviously lost many lives in trying to do this.
    How do you explain that balance?
    Mr. Gelbard. In the case of the prosecutor general, he is 
independent from the government. He is actually part of the 
judiciary, and under the 1991 constitution, is independent.
    In the case of General Serrano and the Colombian police, as 
I say, we were actually quite instrumental in getting President 
Samper to remove a highly corrupt predecessor head of the 
national police, General Vargas.
    Mr. Souder. Was that enacted by the decertification?
    Mr. Gelbard. This was earlier than that, this was in 1994, 
and I personally provided the then minister of defense, who is 
now incarcerated himself for corruption, with significant 
information about General Vargas' corruption.
    General Serrano was appointed in his stead. He was at that 
time the police attache here, had worked very closely with 
government agencies such as DEA, and we felt at that time 
enormous confidence in him. It has been very clear that General 
Serrano has been heavily criticized by his own government, by 
his own congress, but he has shown enormous courage, both 
physical and moral, by continued to pursue the right course.
    Mr. Souder. What is kind of curious to me is, it seems like 
the most critical--I'm trying to sort through the 
decertification process--the most critical thing, ideally, and 
it's very frustrating, I know, when we were in Colombia, their 
frustration with the court process--they get somebody, and then 
they get off, and the sentencing problems you've talked about.
    But the most critical thing in this is the fact that we 
have the police, the defense and the attorney general on our 
side, and we are trying to put pressure on the rest. Would you 
agree that that--in a decertification process, is that 
something you look at?
    For example, if a country has a bigger problem in their law 
enforcement and police and defense, would that make them more 
or less likely to be decertified? Because corruption--I mean, 
we're looking in almost all these countries at mixes of this, 
and obviously one of the things I am hinting at, in Mexico we 
have a huge problem with the attorney general, we have a huge 
problem with corruption of the police, we have a huge problem 
with corruption in the military, and I am trying to sort out 
how you are making your decision of who you are certifying and 
who you are not certifying.
    Mr. Gelbard. When I announced the President's decision on 
certification last year, first of all, I made it a point to 
single out the excellent cooperation and work done by the 
Colombian police and by Prosecutor General Valdivieso and his 
staff. The test of the law, as I said then--and under the law, 
it's very clear; you can ask Congressman Mica, because I think 
he helped write that law--is whether the government has 
cooperated with us.
    The government, in this case, is the one headed by 
President Samper. We did not believe then that it was 
cooperating with us. The President still has not made his 
decision, obviously, on this year's certification process, but 
will.
    We tried to be very careful in terms of separating out the 
cooperation, the extraordinary cooperation we have received in 
working with General Serrano and his police, now with the army, 
with the prosecutor general, and with some others, from the 
undermining that has taken place on a consistent basis by 
others in the government.
    As I mentioned in my oral statement, the government has not 
even yet pursued what President Samper promised in his letter 
to the Congress in terms of extradition. He promised in this 
letter--he said we will present to Colombia's Congress 
stringent new anticorruption legislation. Well, it comes as no 
surprise that he hasn't done that.
    So we have seen, on the one hand, efforts by serious, 
patriotic people, but--and then they themselves have come out 
and thanked us for our support, but then they have been 
undermined by corruption. So the decision had to be made, based 
on the final results, and the final results we see in terms of 
the pathetic and just discouraging sentences for the Rodriguez 
Orejuelas, who continue to run their businesses from jail.
    Mr. Souder. I am not interested in trying to defend the 
President of Colombia, where he takes his money and what he's 
done. What I am saying is, the concept of the government here 
is nebulous when there are independent parts of the government; 
and what you are saying is, you would rather have the support 
of the president even if the police are corrupt, the defense 
may be corrupt, and there's changes in attorney general. But 
you would rather have the support of the president than, in 
Colombia's case, where we don't have the support of the 
president, but we have pressure in parliament and we have the 
support of the people actually cracking down in the drug war, 
who are dying and fighting for it. That's what I am trying to 
sort out.
    If it's just the President and what he is promising to do--
in fact, in your statement, you said the measure is what is 
being done, and in Colombia, they are fighting and dying; and 
part of my concern is that in some of the other countries that 
we're dealing with, they don't seem to be at the enforcement 
point, but they seem to be giving us some of the lip service.
    Mr. Gelbard. Congressman, what we're interested in, as I 
said many times in my statement, are concrete results. When we 
look at the concrete results, as I outlined some of them in the 
statement, and this was clearly the case by March 1st of last 
year, the concrete results, the bottom line, were inadequate. 
In spite of efforts by the police, in spite of efforts by 
General Valdivieso and others, but the concrete result, bottom 
line, were clearly inadequate.
    There is as much cocaine coming into the United States or 
being produced in Colombia as ever before. As the chairman 
said, there is more heroin being produced in Colombia than ever 
before. So that's the bottom line we've got to look at. We've 
got to look at the commitments that the government and the 
president himself made, and the kinds of laws that are 
necessary to produce the concrete bottom line results.
    Mr. Souder. Thank you, I am looking forward to working with 
you.
    Mr. Hastert. Thank you. I just want to say the gentleman 
from Indiana will serve as the vice chairman of this 
subcommittee. We're very proud of the work that he has done. He 
travelled with me last year to Mexico, Panama, Colombia, 
Bolivia, Peru, and certainly is a person we'll depend on a 
great deal to follow you through with on these issues.
    It's my pleasure to turn to the next gentleman on the 
panel, somebody who is very astute in the law and very famous 
in that area, the gentleman from New Mexico, Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman; thank you for holding 
this hearing.
    Mr. Ambassador, I'd like to ask a very basic question 
first. Every nation's government has a constant fight with 
corruption and influence of the criminal elements of one form 
or another. As you know, our own government is not immune from 
such infiltration. But yet, at least as is popularly 
understood, the Government of Colombia seems to have the worst 
problem virtually in the world in that regard. Again, that's 
the image of the Government of Colombia.
    What I'd like to ask is, is that an accurate perception of 
the Government of Colombia, and if so, can you explain why the 
Government of Colombia, the Nation of Colombia, seems to have a 
worse problem with such criminal infiltration than other 
governments do, acknowledging that the problem is universal?
    Mr. Gelbard. Well, first of all, Congressman, I wouldn't go 
so far as to say they have the worst corruption problem in the 
world. I think Nigeria may have that honor, but it's 
interesting, Transparency International just did some rankings 
on it, and I'd be happy to see if I could get them to you, 
because there is an interesting correlation between nation-
states where the rule of law does not prevail, and where there 
is significant drug corruption--Nigeria, Burma, Colombia, a 
number of others.
    The tragedy of Colombia has been violence for many decades, 
going back many, many years; and particularly, I think one of 
the really dramatic and serious problems that we and the rest 
of the international community need to focus on more is--
particularly in the post-cold war period, we have new 
international security threats which are affecting democratic 
institutions, social and economic institutions. Transnational 
crime is clearly one of the most extraordinary that has 
developed. Drug trafficking and transnational crime are 
corrupting institutions everywhere, and Colombia, sadly, is one 
of the most dramatic cases, as you say.
    We have seen that the extraordinary financial power of the 
drug traffickers has now enabled them to corrupt a government, 
and lots of other elements throughout that society, including 
economic and social institutions. This is one of the great 
tragedies because it's one of oldest democracies in the Western 
Hemisphere.
    I think, once again, our--the decision by the President to 
decertify and the extraordinary decision by the President to 
revoke Samper's visa have caused a lot of elements and sectors 
in the Colombian society to really focus on this problem more 
than ever before. As I mentioned, we now have the Colombian 
Bankers Association, who actually came to us last year because 
they knew that the Colombian Government was doing nothing 
against money laundering, and the Colombian Bankers Association 
came to us to ask for training. That helped shame the Colombian 
Government into doing things against this, too. That is just an 
example.
    I mentioned the Flower Growers' Association. There are lots 
of other elements in the Colombian private sector and there are 
lots of American companies who do business in Colombia who are 
also trying to help provide this kind of influence to urge 
cleaning up their institutions. We think that is important.
    Mr. Schiff. That leads, I think, to the second question and 
that is this hearing is very important because it points out, 
particularly with the witnesses that will follow, that even in 
countries that are on the high end of the list, which Colombia 
is among at least the group you have mentioned, there are 
individual nationals in those countries, including high-ranking 
officials themselves, who don't want to tolerate the 
infiltration of crime and corruption----
    Mr. Gelbard. Absolutely.
    Mr. Schiff [continuing]. And who at great risk, great 
personal risk, wage that fight. We all saw here in Washington, 
DC, just a few nights ago, how dangerous it is to be a police 
officer in any country; that the threat of death is, again, 
another universality, unfortunately. Nevertheless, in Colombia 
I understand that thousands of police and antidrug law 
enforcement officers have been assassinated in that country, 
which demonstrates how many people don't want to tolerate that 
situation.
    That leads me to what seems, to me, the inconsistency that 
you may have explained with the other pressures in Colombian 
society. You have spoken well and I think with every 
justification of Generals Bedoya and Serrano, and you said that 
we were able to influence the appointment of General Serrano as 
the head of the police in Colombia. If we believe that General 
Samper is closely allied with the criminal elements in 
Colombia, frankly, how are we able to do that?
    Mr. Gelbard. First, before I answer that, I would like to 
just add a point to what you started out talking about. I fully 
agree with what you say. I could not agree with you more in 
terms of the extraordinary courage of people in the Government 
of Colombia and in the private sector of Colombia, who really 
have--are extraordinarily patriotic in doing this. But I would 
also like to mention the people in our own government who do 
this, people in our Embassies in Colombia, Bolivia, Peru, and 
other places around the world because it takes extraordinary 
courage for those people, including former Ambassador Busby, 
who is sitting here, to have lived under threat for extended 
periods of time.
    As I mentioned earlier, a contract employee of the American 
Government was recently killed in Colombia while he was 
involved in eradicating coca. I think our own people, as I know 
you will agree, sir, deserve equal support.
    Mr. Schiff. I am glad you added that, Mr. Ambassador.
    Mr. Gelbard. In terms of your question, we have tried--we 
have recognized very clearly through the extraordinary step of 
the revocation of a sitting democratically elected President's 
visa. Revoking a sitting President's visa is, as I said, an 
amazing step. The only other case I can think of where this has 
been done in memory is Kurt Waldheim. Revocation of visas is 
not, one could argue, an enormously important step, but it is a 
sign of shame and it is taken as that, because holding an 
American visa is important.
    We are not going to try to interfere in Colombia's internal 
affairs. They elected him. They knew what they were getting. 
His record has been clear for decades. What we have tried to 
do, though, is establish standards under which we are prepared 
to cooperate and support Colombia in many other ways. It is up 
to the Colombian people, obviously, to decide how they want to 
be ruled, but it is up to us and the rest of the international 
community to decide how we are going to deal with those kinds 
of individuals.
    Mr. Schiff. I have one last question, Mr. Ambassador.
    If we could set aside the legalese, I wonder if you could 
explain in direct terms what you feel the goal of our policy 
should be in terms of the ability for decertification, but then 
the recommendation, if I understood you correctly, for a 
waiver. I mean, if the President decertifies a country under 
the law, but then has a waiver, what then can the President do 
and not do? What is the goal you are striving to achieve with 
that?
    Mr. Gelbard. By decertification, what we are trying to 
achieve--we outline in very clear ways to that government in 
very explicit terms the measures that we hope they will 
undertake to have a cooperative relationship with us. We did 
that with Colombia in 1995, in 1996 and we have done it again 
this year.
    We hold them to certain standards and we ask them to 
undertake certain measures and accomplish those measures. Then, 
as I said, the test of the law is whether that government is 
cooperating with us or whether it is fulfilling the measures of 
the 1988 Vienna Convention.
    Mr. Hastert. I thank the gentleman.
    Mr. Gelbard. The only problems I see in the law right now, 
really, are this issue about military assistance, that we would 
be--that I would be delighted to have changed and that we 
supported.
    Similarly, as I mentioned to Congressman Barrett, the 
effects, the negative effects, it has on American business. All 
our other programs have not only continued, as I say, they have 
increased and even doubled. So we are trying to be able to 
focus very clearly on our objectives.
    Mr. Schiff. Thank you, Mr. Chairman. I yield back.
    Mr. Hastert. I thank the gentleman from New Mexico.
    Now it is my privilege to introduce the gentleman from 
Florida, who has been writing pertinent legislation, one of our 
senior Members and he was writing that legislation probably 
while many of us were just cutting our teeth on legislation, 
that is. Mr. Mica from Florida.
    Mr. Mica. Thank you, Mr. Chairman.
    Ambassador Gelbard, welcome back. We have been in this 
battle, I guess, for more than a decade and a half together and 
I appreciate your leadership.
    I have some questions, though, today. Maybe I ought to 
cover, first, the question of certification and waivers. As you 
mentioned, I was active in helping to draft the certification 
law and I just had staff check over the evening to see if we 
had originally included the waiver when we wrote it, and we did 
not. It was added as an amendment in 1988 and it was an 
amendment contained in the International Narcotics Control Act 
of that year. In fact, it did provide a waiver--I think it is 
pretty clear. You said you have had trouble, I guess, with 
Justice and DOD attorneys as far as interpretation.
    Is that correct?
    Mr. Gelbard. Yes, sir.
    Mr. Mica. Well, we have had, I think, through this 
committee, and the chairman of the full committee wrote back, I 
believe it was in November, a request that a waiver be granted, 
and no action--I think that went to General McCaffrey--which 
disturbs me.
    In checking also on waivers that have been granted under 
this Section 614 authority, I find waivers have been granted by 
the administration to Serbia and Montenegro on almost a half a 
dozen occasions; at least twice to Somalia, to Haiti, to 
Rwanda. There are two pages of waivers that have been granted. 
There seems to be plenty of precedence when, in fact, it is in 
the national interest for waivers to be granted.
    I can't believe the administration doesn't consider this 
instance as in the national interest and has been dragging 
their feet. I will provide you with copies of those. That is 
the first point.
    The second point that concerns me is I see the PR that 
Colombia is doing getting ready for their certification 
campaign. They have got this ad that is appearing about how we 
are well on the way to making drug traffickers suffer as much 
as the people they supply. Then they talk about how they are 
making them suffer. The pounds of cocaine have--that have been 
seized have actually been reduced from 1995 to 1996. The acres 
of coca destroyed have actually been reduced from 1995 to 1996. 
It sounds like some serious suffering.
    What concerns me also is in your testimony you said at the 
same time the shift in focus of interdiction operations and 
devotion of increased resources to eradication programs, that 
is on page 9. So you would think that we had gone from 
interdiction--actually interdiction has increased. We have gone 
away from interdiction--to eradication.
    Page 10, then, you testified, the Colombian coca crop has 
expanded over 30 percent last year from 51,000 hectare acres to 
67,000 hectare acres. So it seems that the emphasis, area of 
emphasis that they are taking is also a failure, eradication 
and interdiction.
    Is that correct?
    Mr. Gelbard. Well, let me respond to several points you 
made, Congressman. As you say, you and I have known each other 
a long time and I have enormous respect for your background and 
experience in these issues.
    I have to say that I obviously noticed this media blitz. I 
think the timing is clearly geared to certification.
    I also noticed this lovely color supplement that is 17 
pages in Forbes Magazine on Colombia called, ``The Leading 
Latin American Economy.'' It is a multifaceted economy, 
obviously. That costs about $1 million to put that in here, as 
we understand it.
    What we also understand is that all of these newspaper ads 
cost about $252,000. We also understand they have provided 
about $2 million to public relations firms around here to 
improve their image. I think what Colombia ought to be focusing 
on are accomplishments instead of their image.
    Some of that money perhaps could have been added to the 
military and the police, instead of reducing their budgets, and 
I think that would have been for the good of the Colombian 
people and the international community.
    Mr. Mica. Well, the information you have provided, the 
information I have, shows that both interdiction is down and 
eradication is down.
    Mr. Gelbard. Well, the interdiction results have decreased. 
As you said--I, too, noticed that in these ads, I was surprised 
that they show--that they would take out full page ads to show 
that the results have gotten worse. That is amazing.
    Mr. Mica. Well, the whole thing is alarming, Mr. 
Ambassador.
    The other ad that they don't see is the headlines that I 
see in my district, and I have held this up before. When we 
were in--when we were in Colombia, Mr. Hastert, Mr. Souder and 
others, we were told that there are 10,000 hectare acres now of 
heroin growing, that heroin will be cheaper on the streets of 
our cities than cocaine in short order. This is what is 
happening in my central Florida suburban area. We are not 
talking about urban ghettos of Detroit, New York, Los Angeles.
    So I am not interested--we are not interested in PR. We are 
interested in some action also.
    Mr. Gelbard. I understand. Let me say, on opium poppies, I 
think the area under cultivation, we have just completed our 
survey and I mentioned the coca crop up 32 percent. We think 
the opium poppy crop is about 6,300 hectares, which is a slight 
increase over the past.
    However, you are absolutely right, Congressman, because 
almost all of the heroin that is being produced in Colombia is 
coming to the United States. The Cali Cartel has now used the 
same mechanisms that it has used to distribute cocaine for 
distributing heroin. They are using loss leaders to sell heroin 
at very high purity levels at a very low price and they have 
taken ownership of the heroin distribution all through the East 
Coast.
    When I talk to the DEA in New York, in Baltimore, in 
Philadelphia and other places in the East Coast, Hartford, you 
can't find Southeast Asia heroin on the streets of those cities 
anymore. It is Colombian heroin. That shows that it has 
continued to increase even while--the police have made strong 
efforts. The military are making strong efforts. But absent the 
kind of governmental support that we were discussing, 
Congressman, earlier, absent the framework of laws, absent 
other kinds of support, they are going to be--they are going to 
be able to continue to pump this stuff out.
    We have only now been able to negotiate a maritime 
interdiction agreement, and we have seen a significant shift in 
the use of ships from airplanes as a way of getting drugs to 
our shores now and to Europe, where there is a significant 
increase, too, in cocaine and heroin coming from Colombia.
    Mr. Mica. I have other questions but my time has expired. 
We will get back. Thank you.
    Mr. Hastert. I will advise the gentleman, we will come back 
for a second round to anyone who may have another question or a 
round of questions.
    I just have a quick followup question or observation on 
this. On a couple of statistics that we have been throwing back 
and forth here today, basically, you have said that the 
interdiction is down of drugs coming out of Colombia, and one 
of the reasons that some people have said that is because we 
have been doing more spraying and the Colombians have been more 
effective at killing hectares of cocaine.
    Also, it was interesting to see that some people predicted 
the amount of cocaine moving out of Colombia is actually up, no 
matter what the interdiction is. That also is explained by some 
folks that there has actually been a huge decrease in the 
amount of cocaine or coca paste coming up from Peru because of 
the success of the air bridge, and that is no longer a 
dependable market or at least as dependable as it was. So the 
narcotraffickers are really concentrating on growing their own 
crop in a sense. Is that valid?
    Mr. Gelbard. You are absolutely right on Peru. It is a 
combination of the support we have given to the Peruvian 
military and police on interdiction and law enforcement on the 
one hand and the support we have given to--we and other nations 
have given to Peru for alternative development on the other.
    The price of coca went way down. We are providing funds for 
other livelihoods and people are literally walking off the 
land. So there is an 18 percent decrease nationwide.
    In Colombia, I don't think there has been a real shift from 
interdiction to eradication. There has been a significant 
increase in eradication efforts, but interdiction and law 
enforcement efforts have continued.
    The problem has been, I think, overall corruption. Once 
again, the statistics are not ours. These are statistics 
provided by the Colombian Government themselves.
    Mr. Hastert. Thank you, Ambassador.
    The next gentleman I would like to introduce is certainly 
somebody who has distinguished himself on this panel and 
others, the gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Ambassador, I don't really necessarily have any problem 
with the administration's decision last year on 
decertification, and I have heard your testimony today and have 
read a great deal of material and I think it is admirable that 
this administration has reached the conclusion that campaign 
financing scandals involving foreign leaders are very serious 
matters, worthy of very extraordinary action, even hampering 
our war against drugs by cutting off certain types of 
assistance and taking the extraordinary step of denying a visa 
to a leader of a foreign country because of a campaign 
financing scandal. But I am somewhat concerned about what 
appears to be inconsistencies in the way the administration is 
approaching these matters and in particular some 
inconsistencies that appear to me certainly to be 
inconsistencies with regard to the International Narcotics 
Control Strategy Reports, or INCSR.
    For example, I know under that process, and pursuant to the 
law, Colombia and Mexico, among many other countries, fall into 
the very same categories of major drug producing and drug 
transit countries. Both Colombia and Mexico fall under the same 
categories as major money-laundering countries, yet the action 
of this administration last year, in terms of the extraordinary 
step of decertifying and then not even applying for a waiver 
and, as my distinguished colleague from Florida has said, 
waivers have been requested in, I think, far less important 
circumstances, that is, if the administration places 
counternarcotics activities at a high priority. Yet, with 
regard to looking at Colombia and Mexico, for example, which 
have a great deal in common in terms of the pervasive 
corruption in their societies and in terms of their preeminent 
role in sending drugs into this country, action was taken last 
year only against Colombia and not against Mexico.
    I don't know whether this has anything to do with the money 
that we have extended to Mexico--and I am glad that the 
President highlighted in his State of the Union that they 
repaid us in record time or something--but the fact of the 
matter is, I think Mexico does not have a great deal to be 
proud about and I think that this administration ought to be 
doing more to talk not so much about Mexico paying us back in 
record time for money extended to them, that a number of us 
think we had no right to do anyway, with Mexico's increasingly 
sorry record of corruption and direct massive involvement in 
sending drugs into this country.
    I would like your explanation of why action was taken 
against Colombia in terms of decertifying them and not against 
Mexico. Second, I would appreciate, again, an explanation of 
something that a couple of the other members of the panel have 
touched on, and that is why the administration has failed to 
take advantage of the very, very broad authority that I presume 
lawyers on your staff, and I know you are very familiar with, 
under, for example, 22 U.S.C. Section 2364. It is very broad 
authority for the President to, simply by notifying the 
specified Members of Congress of his intention, very, very 
broad authority to continue or expand military assistance, 
which is, as you said, to these countries that can be used for 
eradication and counternarcotics efforts, why the 
administration has not sought to take advantage of that.
    Obviously, they are aware of it, because it is a 
longstanding statute provision, the waiver provision, going 
back 36 years. There were two Members of this Congress last 
year that wrote to General McCaffrey specifically requesting 
that that action take place.
    Mr. Gelbard. I know nobody here is going to sit and 
question the decision of the President to have decertified 
Colombia led by a clearly corrupt President who has had a 
history of involvement with drug traffickers, of soliciting and 
receiving drug money going back to 1982, a clear history, no 
question. All of the information is out there.
    I personally sat down with then Candidate Samper in 
November 1993, and told him we had exquisite intelligence which 
indicated from lots and lots of sources, now out in the public 
domain, that he and his associates were soliciting and 
receiving drug funds for their campaign. He denied it, of 
course.
    I told him he needed to stop right then, because we would 
know if it continued and the relationship with him, if it 
continued and he were elected President, would be bad.
    He went back to Colombia and it continued. The proof is out 
there now about soliciting and receiving more than $6.6 million 
in drug funds. We have seen the consequences.
    The President took the decision to decertify Colombia, a 
very important decision based on the test of the law, which was 
whether the government was cooperating with us. The government 
was not cooperating with us.
    The test of the law was also applied in the case of Mexico 
and the President believed, and I believe, that President 
Zedillo was cooperating with us.
    The President hasn't made his decisions for this year for 
1996. That will come out toward the end of this month. But 
there have been clear-cut cases, examples of progress in terms 
of our cooperation with Mexico during President Zedillo's 
administration.
    The lack of institutional capabilities in Mexico, I think, 
were fairly clear compared to Colombia. We have a strong, 
honest police with strong, dedicated, honest leadership.
    Mr. Barr. In Mexico?
    Mr. Gelbard. In Colombia.
    Mr. Barr. OK. Good.
    Mr. Gelbard. We have the same in the Prosecutor General's 
Office. We now have in General Bedoya, a serious, honest person 
who wants to work with us in closer ways than ever before on 
counternarcotics and, as I mentioned, for that reason we have 
taken the step of now allocating funds directed to the armed 
forces for the first time out of my budget.
    President Zedillo and many of his ministers have now been 
trying to push for much better results in Mexico, and over the 
course of 1996, I think, we have already seen some dramatic 
changes.
    For example--and, Congressman, knowing your distinguished 
record as a prosecutor, you would understand this--they have, 
for the first time, started extraditing their own nationals, 
without precedent. They deported to the United States Juan 
Garcia Abrego, who I mentioned earlier, who has now received, 
as I mentioned, 11 life terms and many others. These are very 
important, unprecedented steps.
    We have begun cooperation with Mexico in counternarcotics 
with their army and we are seeing very strong, positive results 
as a result of that military-to-military cooperation, now 
engaged in interdiction as they had already been engaged in 
eradication.
    We are seeing seizures up significantly in Mexico as a 
result of cooperation that we have with the Army, with the Air 
Force and with certain police elements.
    They have now passed a major money-laundering law for the 
first time and they have implemented it and already making 
cases. They have passed an organized crime law, modernizing the 
tools that you, as a former prosecutor, are familiar with, that 
in most countries are novel ideas, such as allowing evidence 
from wiring tapping that is court authorized to be used in a 
court of law, which had not been allowed before.
    Arrests are up of drug traffickers, arrests are up--both 
domestic and foreigners who are in the country. Seizures are up 
of heroin. They are up something like 79 percent in Mexico. 
Seizures of cocaine are up.
    So we think there has been progress under President 
Zedillo, but in terms of the contrast--and I obviously can't 
predict where the President is going to come out on 
certification. In fact, the recommendations haven't even gone 
to him yet.
    Mr. Barr. The second question that I had, please, about why 
the President has not sought the waiver and what----
    Mr. Gelbard. First, what we did--what we were--what we did 
concur with were the efforts in the House International 
Relations Committee to get an amendment to the law to permit 
this. As I said earlier, unfortunately, the Congress failed to 
pass that amendment, and I regret that.
    Mr. Barr. I am talking about the existing law.
    Mr. Gelbard. I am talking about the existing law--of trying 
to change the existing law about prohibition on FMF and FMS. We 
have been working with the issue of a 614 waiver. I also know 
that the Congress in the past has criticized the administration 
for over use of the 614 waiver.
    So we do hope to be able to provide assistance to the 
military. But once again, this is a relatively small part of 
overall assistance to Colombia. The more important issue, I 
think, is that we, through my budget, which is the main source 
of funds far and away to Colombia, are going to be providing 
this year equipment and support worth $147.8 million to 
Colombia. That is an extraordinary amount.
    Mr. Barr. But why hasn't the administration sought the--and 
I maybe disagree with you. I think the waiver in 22 U.S. 2364 
is very broad. Why hasn't the administration used that as a 
tool to get assistance directly to the military and the police 
in Colombia?
    Mr. Gelbard. Assistance to the police has gone through.
    Mr. Hastert. I think we will come back with a second round 
and be able to ask those questions.
    Mr. Barr. OK.
    Mr. Hastert. The gentleman from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    Mr. Ambassador, in preparing for this hearing I was struck 
by some of the strength of the remarks made by various 
officials in our government about President Samper. In your 
testimony on page 4 and again you repeated it, I think, in 
questioning with Mr. Barr, that you reached the conclusion that 
the President has aided and abetted drug traffickers and that 
led to, in part, to the decision to revoke his visa.
    I was reading an observation by our Drug Czar, I think our 
new national Drug Czar, Drug Policy Director, Mr. McCaffrey, 
who indicated that he has been--the President has been 
complicit with international criminals. I think even our 
Ambassador to that country made the observation that although 
he says all sorts of things, he has done very little and he has 
no friends in Washington.
    As someone who is coming to this committee afresh, I have 
read and I have heard you say today that there is an 
observation that $6.6 million found its way apparently into 
President Samper's campaign coffers from drug traffickers. I 
have heard you--I hadn't read it before, but I heard you say 
for the first time that apparently you have uncovered a history 
of that type of transaction since 1982.
    Is it the conclusion of the administration that the 
acceptance of these funds from questionable characters equals 
he must be complicit and therefore coddling or caving into drug 
traffickers, narcotraffickers, or is there additional evidence 
that that is, in fact, the case?
    I guess what I am getting at is, I suppose one could make 
the argument that he has accepted a campaign contribution. He 
wrote a letter to Congress saying that he would do certain 
things; he didn't do it. Therefore, it must be the campaign 
contribution equaled he didn't get the money laundering 
statutes passed through his Congress. Or is there other 
evidence that you are familiar with that leads you to that 
conclusion?
    Mr. Gelbard. The Cali Cartel has never been known to have 
provided support without a quid pro quo. We believe that there 
are--there is information which causes us to believe that there 
were direct consequences of the receipt of these funds.
    Mr. LaTourette. OK. I think that is an important--at least 
to me, it is an important question, because I don't think that 
you would argue that merely, as Mr. Barr, I think, was asking 
you, the mere acceptance of campaign contributions from people 
of questionable character equals that you do what they want you 
to do in contravention to the best interest of your Nation, 
certainly.
    Mr. Gelbard. The President made the decision to revoke the 
visa under a provision of the law which deals with individuals 
who aid and abet drug traffickers.
    Mr. LaTourette. OK. If I could fast forward now to the 
present day, and I was very interested in Mr. Mica's 
questioning and also your showing us the Forbes Magazine piece. 
I don't think there is anything wrong with a country promoting 
itself and saying that it is a nice place to visit, has a 
strong economy. But there have been other things in the news 
recently. In particular I was interested in a raid that 
apparently occurred down at the end of January in Colombia at a 
drug manufacturing center, and I have observed two spins put on 
that.
    One is that it was a huge distribution or manufacturing 
center that could have supplied up to half the manufactured 
cocaine down in Colombia on an annual basis. I have also read 
sort of a sarcastic piece that says, well, they knew about it 
for a long time and they waited until the recertification 
decision was coming up here in the United States in March and 
that is when they sprung it.
    Do you have an observation as to whether this is window 
dressing or whether or not this is evidence of increased and 
enhanced drug enforcement activities and the redoubling of the 
effort by the Colombian Government?
    Mr. Gelbard. I don't believe that the Colombian police or 
the Colombian Army or the Colombian Air Force would undertake a 
laboratory raid because of any proximity to certification. We 
have a great deal of trust in them and their leadership and 
that is why we work with them so closely. But I think this goes 
to, in fact, part of my own experience.
    I was Ambassador to Bolivia when during part of that time--
this goes to also some of your questioning, Congressman--we had 
a President then in Bolivia, Jaime Paz Zamora, who had been 
corrupted by the drug traffickers, and his visa was also 
revoked, by the way.
    We were working very closely with the Bolivian police and 
Bolivian Air Force on some significant counternarcotics 
achievements, on a separate track from what the government 
itself was doing and the governmental leadership, and it is 
possible to do that.
    We have a very close collaborative relationship with the 
police, the Army, the Prosecutor General's Office.
    Mr. LaTourette. Likewise, I assume the activity that 
occurred maybe a week ago, I understand there was an 11-city 
sweep that occurred down in Colombia relative to rooting out 
suspected trafficking activity, that you would put in the same 
category?
    Mr. Gelbard. Well, what I would say is that, as I mentioned 
earlier, I don't think it is a coincidence that suddenly the 
government has moved at the end of December to get the asset 
forfeiture law passed; that suddenly we have seen them 
initial--agree and initial the maritime interdiction agreement, 
which we have been pursuing for a few years; that suddenly they 
are having an extraordinary session of their Congress next week 
to try to discuss a sentencing law.
    We happily will take the results. They are important 
results. But the timing isn't coincidental.
    Mr. LaTourette. That was what I was going to ask you. 
Although you may question their timing, you consider them to be 
significant progress on the part of the Colombian Government?
    Mr. Gelbard. On those issues, once again, I think the 
certification process helps.
    Mr. LaTourette. OK. If I could just ask you a technical 
question relative--on the extradition question. Am I correct in 
my understanding that in order for Colombia to modify their 
policy on extradition there would have to be a change to their 
constitution? Am I correct on that?
    Mr. Gelbard. There are two interpretations. There is one 
school of thought which says they have to modify the 1991 
constitution and in that case, the Cali Cartel clearly was able 
to buy enough votes in the constitutional convention to exclude 
that.
    There is another school of thought which says that the 
bilateral--the treaty we have with Colombia, which I think is 
the 1979 treaty, would override the constitutional provision 
and that apparently is going to be taken to the highest court 
in Colombia soon.
    Mr. LaTourette. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    Mr. Gelbard. Thank you, sir.
    Mr. Hastert. A couple of quick questions and then I think 
we will go on a round of quick followup questions, if we could.
    Mr. Ambassador, one of the obvious things of the whole drug 
war, multinational drug war, you can grow coca leaf, turn it 
into paste, transport it, remanufacture it into cocaine, crack; 
same with heroin, and the poppy and the heroin. It comes in--
most of it at least comes into this country wholesale, 
retailed, retailed again, sold on the street, literally 
multiplying its value not by tens or by hundreds but by 
thousands, sometimes millions of factors.
    That money--in order for all that work to be done, there is 
no value in all of that movement unless the money comes back to 
the person who is in charge. Money laundering probably is one 
of the--is the tie to this. What nation in the world is No. 1 
in money laundering? Can you give me a crack at that.
    Mr. Gelbard. The United States.
    Mr. Hastert. What country is No. 2?
    Mr. Gelbard. Hard to say. Let me say, I fully agree with 
you. This is why we have tried to put major emphasis on a money 
laundering initiative that is included in Presidential 
Directive 42 on international crime.
    We have tried now to marshal all of our resources in the 
U.S. Government through Treasury, Federal Reserve, Justice, and 
the State Department and others, to work with countries to put 
major emphasis on antimoney laundering, much more than ever 
before.
    Secretary Rubin, in fact, chaired a little over a year ago 
a hemispheric conference on money laundering and we are 
pressing governments such as Colombia to take the strongest 
possible action.
    An example of Samper's cynicism was at the Miami 
Hemispheric Summit, where he called for a hemispheric 
convention on money laundering and Colombia hadn't even 
criminalized money laundering yet.
    They subsequently passed a weak money laundering law. We 
are now pressing them to toughen that law and then to take 
other measures.
    We are doing the same with other governments in the region, 
whether they are large governments, such as Venezuela, Mexico, 
which, as I say, has now adopted a tough money laundering law. 
Or even small Caribbean countries which are used as centers for 
dirty money, such as Antigua. But we are doing the same also 
around the world, and this has been a Presidential initiative.
    Mr. Hastert. In fact, the United States is No. 1. Mexico is 
probably No. 2. Panama is probably No. 3 and, you know, 
Colombia is down there No. 4 or 5 or 6, which doesn't validate 
anybody or give them a license.
    The fact is, all the money comes into this country and we 
are doing a very poor job, because the money--drugs wouldn't 
come into this country unless the money could flow out again. I 
think one of the emphases that I would say that this Congress 
ought to do is take a look at how we can make our laws better 
and enforce those laws.
    Mr. Gelbard. Can I say, I agree with you. What's happening, 
though, when I talk to DEA and other law enforcement 
organizations, which work inside the United States, what they 
are telling me is now the tough--there are very tough 
antimoney-laundering laws in the United States and enforcement 
has been dramatic. The result is that drug traffickers are now 
shipping their money out by--in cash and they are shipping it 
out in containers.
    Jim Milford, who is now the Deputy Administrator of the DEA 
and was previously the head of their Miami office, has told me 
about seizures of tens of millions of dollars that they have 
picked up in Miami of money going out of the country on its way 
back to Colombia. We have got to be able--the hard part is 
getting a handle on those containers. That is very hard.
    Mr. Hastert. We even had testimony that, as a matter of 
fact, it is more difficult to pack street dollars, street cash 
into those containers; it takes more container volume than the 
drugs that come in on them.
    Mr. Gelbard. The other thing, if I could say, sir, is that 
we have been working for a number of years, since the Financial 
Action Task Force, which is the multilateral organization that 
deals with this, based in Paris, which was set up a number of 
years ago, to try to establish international standards against 
money laundering. We and some of our allies in Europe and Japan 
have been working together to urge countries such as Colombia, 
Mexico, Panama and others, including the European countries 
such as Austria, which has never ratified the Vienna 
Convention, to take strong action on money laundering.
    Mr. Hastert. I have one quick question before my round is 
up here. During our period of time on decertification, the 
Colombian military and police continue to fly excess United 
States Huey helicopters. Five of them were shot out of the sky 
by the narcotraffickers and guerilla armies. It took the 
administration about 6 months to replace these excess 
helicopters, based chiefly on trying to get legal opinions 
whether it was right or wrong during this period of time.
    Just as there have been sometimes delays of months in 
trying to find spare parts to make the DC-3s fly, which got 
materials out into the jungles, and also the herbicides that 
were needed, we also delayed the delivery of the Blackhawk 
helicopters. I am not even sure they are on the shores of 
Colombia yet. This has all happened since basically the 
decertification of Colombia.
    In view of the numbers of Americans dying from violence on 
American streets because, in part, this happens, how can we 
expect that not to happen again?
    Mr. Gelbard. First of all, that had nothing to do with 
certification. The Blackhawk transaction is a commercial 
transaction and, in fact, we and the Pentagon got Sikorsky to 
agree to jump Colombia to the front of the line to get their 
helicopters. The first helicopters are, in fact, arriving 
tomorrow in Colombia.
    Second, last year we provided 12 more helicopters, 12 Huey 
helicopters to them. We have provided three Bell-212 
helicopters and are about to provide three more.
    We have given them all the spray planes we have got 
worldwide. As I mentioned, we have lost two, one to ground fire 
and one when tragically an American pilot crashed. We are about 
to provide five more OV-10 Bronco aircraft; two this month, 
three by the end of March. We will be providing 12 more Huey 
helicopters within the next month or so. So we feel we are 
moving this as rapidly as we can and as rapidly as their 
absorptive capacity can handle.
    I would point out that the operating rate in Colombia for 
aircraft is lower. It is about 65 percent. It is lower than we 
have in Peru and Bolivia, about 85 percent. So it is not just a 
question of pumping equipment in. It is also a question of 
maintaining that equipment well and being able to use the spare 
parts.
    Mr. Hastert. Getting the spare parts there?
    Mr. Gelbard. We have provided $4 million in spare parts 
this last year, too. Thank you.
    Mr. Barrett. During the course of this conversation this 
morning, we have heard you praise the political leadership in 
Mexico, but not have such great praise for the military or 
police in Mexico and, in contrast, in Colombia there has been 
strong praise here for the police and military, but obviously 
no praise at all for the political leadership.
    Can you site some examples where some of the higher regions 
of the government and Colombia has undermined the hard-working 
efforts of the police and the military?
    Mr. Gelbard. I think the primary examples would rest in 
cutting their budget, first of all.
    Mr. Barrett. How much is the budget?
    Mr. Gelbard. I don't have any answers on that, but I would 
suggest you might want to ask General Bedoya about that. But 
one would think that if, as even President Samper says, the 
fight against the guerilla terrorists and the fight against 
drug trafficking are as high priorities as he says they are, 
then their budget would go up, the way ours did.
    Second, they did nothing to try to move expeditiously on a 
new sentencing law that was promised almost 3 years ago. That 
would, I think, have helped enormously in terms of not just the 
morale, but the rule of law for the police, who had superb 
performance in capturing the leadership of the Cali Cartel. So 
here they captured all of these people, but then they were 
brought to jail and, as I said earlier, they have received 
ridiculous sentences; no forfeited assets because the law was 
just passed now.
    Money laundering, the money-laundering law that was finally 
passed was weak and the government made no effort to make it a 
serious law.
    The kind of stringent anticorruption legislation, and those 
are President Samper's words, that he promised has never been 
presented, and on and on.
    Meanwhile, a very interesting example is the cooperation 
between the Minister of Interior and a German citizen, an 
apparent German espionage agent, named Werner Mauss. They were 
apparently looking to have the German Government, which 
ultimately refused, broker a deal for the Cali Cartel, which 
would have resulted in them getting off scot free and keeping 
20 percent of their assets. That is an amazing example.
    This man, Mauss, working with the Interior Minister, was 
also trying to corrupt the contracting process and hurting 
American companies and was also trying to make deals with the 
guerrillas. He was trying to free German hostages, but he was 
getting the ransom raised and getting a percentage of that. 
That endangered the lives of American citizens who were held 
hostage.
    So this is all part of what the government and President 
Samper have been doing.
    Mr. Barrett. OK. Thank you.
    We have heard some criticism of the administration's 
actions today, but I don't think we have heard any criticism of 
the decision to pull the visa of President Samper.
    Is there a way to turn the heat up even more? Have you 
considered pulling his diplomatic visa? Is that something that 
could be considered? What is the next way to put the spotlight 
or keep the spotlight on him?
    Mr. Gelbard. We have revoked the visas of a large number of 
Colombian Government officials, of ministers or former 
ministers, Members of Congress. We have frozen the assets, as I 
say, of a lot of the front companies.
    We have considered other measures and are considering other 
measures, but I would rather not get into them today.
    Let me also add, though, that I think it is not coincidence 
at all that when Secretary Albright recently presented our 
human rights report, Colombia was clearly targeted as one of 
the leading offenders. One of the examples that we have looked 
to is the fact that President Samper has also put into place a 
very harsh censorship law against the press and I think that is 
another example of this overall atmosphere we have seen. But we 
are considering others--other measures.
    Mr. Barrett. I am glad you mentioned the human rights 
concerns because that is something we haven't talked about this 
morning. In your analysis, where have the majority of the human 
rights violations occurred, by government officials? 
Specifically, where are we seeing the human rights violations 
in Colombia?
    Mr. Gelbard. We have been very concerned, as have 
nongovernmental organizations, by human rights problems, 
particularly through the military.
    General Bedoya, I think, has been making a major effort, as 
did the former Minister of Defense and now Ambassador in 
Washington, Esguerra, to try to improve that situation. In 
fact, General Bedoya and I discussed that issue yesterday. We 
feel that General Bedoya is making serious efforts on this 
problem.
    I have to say, though, that there is no question that the 
real human rights problem has also been at the same time what 
the guerilla terrorist groups have also been undertaking, the 
FARC, ELN and other groups. They have kidnapped foreigners and 
their own citizens. They have murdered hundreds upon hundreds 
of other people. Once again, we think the institutions are 
trying to make improvement. We regret very deeply that 
President Samper is trying to curtail press freedom and we have 
spoken out quite strongly about that.
    The Congress of the United States, in its last session, 
approved a new law called the Leahy amendment, under which 
funds from our budget have to take into account human rights 
elements. We are stringently, of course, obeying that law and 
are working very closely with the Colombian Government to 
assure that our assistance takes into account all appropriate 
and serious violations.
    Mr. Barrett. So you have drawn up lists of offending units 
or you will be drawing up lists?
    Mr. Gelbard. Sorry?
    Mr. Barrett. Have you drawn up lists, then, of offending 
units or will you be doing that?
    Mr. Gelbard. Ambassador Frechette has been working very 
closely with General Bedoya and the new Minister of Defense on 
this issue, yes.
    Mr. Barrett. OK. Thank you.
    Mr. Hastert. A quick followup. You mentioned press 
censorship. One of the things we try to do here is to try to 
keep updated on what is going on in Colombia from the Colombia 
press. One of the major papers, El Tiempo, that comes out of 
Colombia, apparently, at least, in our reading, doesn't say--
they seem to be speaking out quite bravely on a lot of issues 
and it really doesn't seem that there has been a lot of 
censorship, at least in our view of this. Any comment on that? 
Do you think El Tiempo, for instance, has been severely 
hampered?
    Mr. Gelbard. El Tiempo is very brave. El Espectador and 
others have taken very strong stands. The censorship law, if I 
remember correctly, is particularly directed at television and 
radio and the idea is that their licenses can be revoked.
    Mr. Hastert. OK. That narrows that down.
    Mr. Gelbard. Yes.
    Mr. Hastert. Significantly.
    Mr. Souder. I want to restate the obvious here before I 
start out, and that is that none of us have any interest in 
defending the actions of the President of Colombia. Partly in 
discussions with you, when we went down there, we didn't meet 
with him. We met with President Zedillo and others.
    At the same time, one of our obligations--and, quite 
frankly, I find this whole advertising campaign very insulting, 
about how we make decisions here, and they got pretty bad PR 
advice, that--but one of our jobs here is to make sure that 
there is fairness. We want to make sure that Colombia isn't 
just being used as a whipping boy solely when the problem is 
far beyond that.
    I want to sort through one of the difficult issues that 
faces us in almost all these nations, and that is the problem 
of the mixing, as President Zedillo told us, of narcoterrorists 
and, in fact, the revolutionary movements in those countries 
and how the different governments can deal with that.
    For example, we get mixed up in the human rights questions 
and the narcotics questions and the revolutionary groups, and 
those things are not separated from each other. Often, the 
human rights restrictions that--so, for example, we have had 
problems with President Fujimori in the past; and when you 
shoot down airplanes you aren't necessarily reading the Miranda 
rights as you are shooting down the airplanes, although they 
make some attempts to do that; that in Burma we have a problem 
there both in the electoral process but also, up in the 
northern part of Burma, in trying to get cooperation.
    When we cutoff any relations, we are having trouble getting 
control. You see it going into the Yunnan province in China 
and--because of the Muslims there. It is not even clear that 
the National Government of China can control that.
    In Mexico, we have corruption down at the regional levels 
and in their police departments, and Zedillo is concerned that 
that is going to be a revolutionary--tied in with the 
revolutionary movements.
    The question comes as to how are you distinguishing--and 
let me put this in a provocative way. Is some of the reason we 
are isolating Colombia, which--clearly, we have seen the movie 
Clear and Present Danger. Ambassador Busby, I think, made the 
funniest statement when we were there, which was, I asked him 
how accurate the movie was; and he said, very accurate, except 
I died in the movie.
    While we see that and it is easy to focus on Colombia, we 
need to make sure that the only reason we aren't isolating 
Colombia is that flowers and coffee may not be as potent as the 
trade that we want to do with China or Mexico and that we 
balance--and I want to see an even type of approach to all of 
these different countries.
    I would like you, in particular, to comment on how you see 
the drug trafficking and the revolutionary movements and the 
human rights mixing in four of the most explosive and major 
drug areas of the world: Peru, Colombia, Burma and Mexico.
    Mr. Gelbard. Nobody is picking on Colombia, Congressman.
    Mr. Souder. They deserve being picked on. The question is 
on being isolated.
    Mr. Gelbard. I am disliked in lots of places around the 
world. We have--this hearing happens to be on Colombia. If this 
hearing were on Nigeria, you would hear me say the same things 
but maybe more. If this hearing were on Burma, you would hear 
me saying the same things about the SLORC; and I will talk a 
little bit about that, if you would like.
    Mr. Souder. OK. What about Mexico and China?
    Mr. Gelbard. We feel very strongly--I am not sure how much 
the Mexicans like me, either.
    My job relates to trying to develop stronger 
counternarcotics cooperation and results worldwide. I feel very 
strongly about it. This is not the easiest job in the world, 
obviously; and it is sure not the most enjoyable.
    We have taken a very strong stand on these issues 
worldwide, worldwide. When I came into this job, and knowing 
that Congressman Mica was now a Member of Congress and would be 
watching me very carefully, I looked at the certification law 
and I said that as long as I am the person responsible for 
managing this, I am going to take this very seriously. We have 
seen--I think if you examine the results, you will see that 
there has been a significant change in the way that this 
administration has dealt with certification, has dealt with 
money laundering, has dealt with a whole range of these issues 
than ever before.
    We are, obviously, concerned about trying to work a balance 
on many of these issues. If you read through the various laws--
and we have to be guided by the letter and the spirit of the 
laws--there are often conflicts in the laws, and there are 
often conflicts among Members of Congress as they interpret the 
laws.
    I am tremendously concerned, for example, about the fact 
that an enormous amount of heroin that comes into the United 
States comes from Burma, as are you. But there are also Members 
of Congress who are very concerned about impeding our ability 
to deal with that problem.
    What I am trying to do is work with the United Nations Drug 
Control Program, through that kind of program, to develop a 
program with integrity to deal with eradicating opium poppies 
and having crop substitution, particularly in the Wa area. I 
have been in the Yunnan province in China. I have spent a lot 
of time with the Chinese authorities and with others. We also 
see an enormous amount of corruption in the SLORC and in lots 
of other places in Burma.
    In Colombia, we have been trying to develop serious 
programs to deal with the ever-increasing problem, the overlay 
between the guerilla terrorist movements, drug trafficking and, 
increasingly, cultivation.
    The phenomenon of the involvement of the guerilla terrorist 
groups in drugs isn't new. In 1985, when I became involved with 
this for the first time professionally, it was quite apparent 
then. The FARC at that time were guarding drug laboratories and 
benefiting from it. The M-19 at that time apparently was on 
contract from the Medellin Cartel when they murdered a large 
number of members of the Colombian Supreme Court.
    This is--but the law also says that any assistance from my 
budget has to go 100 percent against drug trafficking. It can't 
be used for multiple purposes. But this--this is what General 
Bedoya and General Serrano and I were discussing just last 
night, how we can work together in certain regions of Colombia 
where it's clear that the guerrilla terrorist groups are 
involved very clearly in drug trafficking, in cultivation, 
protecting cultivation, and we can have programs that will 
fully be in concurrence with American law. We had some detailed 
discussions about that last night.
    That is also why we have now explicitly put $5 million in 
our budget specifically for the military of Colombia. But, at 
the same time, we have to be very clear in our own minds about 
our own standards and our own beliefs as well as the law 
regarding human rights.
    In Peru, if I can just say, yes, there were obviously a 
great deal of concerns about human rights. They have less to 
do, in my mind, with forcedown and shootdown of aircraft; but 
we also were faced with a law that may or may not have had a 
certain meaning regarding civil aircraft.
    As you probably know, Congressman, I led the fight to make 
sure that we would be able to provide realtime intelligence 
support to the Air Forces of Colombia and Peru. We are doing 
that now. We are doing that with great results. But we have had 
to be very careful, in part because we fundamentally believe in 
the rule of law and the need to have effective programs that 
won't be undermined over the medium and long term.
    Mr. Souder. You know, once again, I want to reiterate that 
I believe that you have been committed and have been pushing in 
this administration for that. I want to make sure that you 
understand, too, that in addition to the countries that are--
quite frankly have less financial clout in the world, Burma, 
Colombia and some of the others, compared to some of the bigger 
countries, that some of us want to see the same pressures 
across the board. We are not faulting--we want to keep pushing 
you, but we are not necessarily faulting where you have been.
    Mr. Hastert. I thank the gentleman.
    The gentleman from Florida, Mr. Mica.
    Mr. Mica. Mr. Chairman, Mr. Gelbard, one of the problems 
with the decertification law as we wrote it--and we wrote it 
back in the 1980's--was it tied foreign aid into drug 
eradication or drug efforts by nation; and many of the nations 
were poor and were dependent on U.S. assistance, received large 
U.S. assistance.
    One reason I don't think it worked with Colombia too well 
is, actually, it's a pretty wealthy nation. It's one of the 
wealthiest in the western hemisphere.
    I think our subcommittee and Congress needs to look at 
imposing some further pain on countries that don't need this. I 
think Senator Grassley is looking to multidecertifications; 
like the second strike, if they decertify Colombia that we look 
at some real pain for that country. So that is one thing that 
we may need to look at, that we talked about.
    Ambassador, the members of the committee went down; and we 
went to Colombia, we went to Peru, we went to Bolivia, other 
areas, Panama, Mexico. If this administration had really 
emasculated the interdiction program and even some of the 
eradication programs, if we came back and we put together all 
the resources that everyone needed or asked for--I don't think 
there wasn't anything that you all didn't ask for that we 
didn't deliver. We felt that policy was a disaster. Our 
experience in looking at it proved that it was a disaster.
    Then in September--and you alluded, too, in your testimony, 
too, the problem now with some of the air cover and other 
things that now these folks are going to--riverine strategy, 
taking the stuff out in boats and ships. In September, Barbara 
Larkin, Assistant Secretary of Legislative Affairs, sent the 
chairman, I think Mr. Gilman, notifying them of a drawdown for 
funds. This is--I talked about the other pot, the FMS pot. This 
is your pot, under State. That was to buy patrol boats, because 
we saw the problem now with this new pattern of trafficking and 
other equipment.
    It's my understanding that even in September, when you told 
us that this was going to be done, that nothing has been done 
in ordering this equipment. Is that correct?
    Mr. Gelbard. No, that is not correct.
    We have moved to provide--this is the program under Section 
506(a)(2), if I am not correct--is that right?
    Mr. Barr. Yes.
    Mr. Mica. Yes.
    Mr. Gelbard. We have moved to try to establish the proper 
agreements with the nations involved so we can send the 
equipment there.
    The Colombian--we have needed two provisions under the law. 
One is an end user agreement and the second is an agreement on 
human rights. We finally received that agreement from the 
Colombian Minister of Defense on February 11th. We were delayed 
by the Colombian Government.
    Mr. Mica. So it's the agreement?
    Mr. Gelbard. That is done.
    Mr. Mica. But these still haven't been ordered, right? This 
equipment?
    Mr. Gelbard. No. It is all ordered, and it is ready to move 
now that we have----
    Mr. Mica. I would have to disagree with that. I have the 
manufacturer back--in the back of the hearing room here, and he 
tells me nothing has been done.
    The same thing for Peru. If you turn to the 
administration's letter--and I don't know of any 
decertification in Peru--we will also furnish three river 
patrol boat craft to Peruvian security. We are asking for a 
drawdown of $13.75 million. This stuff hasn't even been ordered 
yet. They tell me it will take, after the order, 120 days, half 
a year, before this is produced.
    So we went down in April. You requested this in September; 
and nothing is done, at least as far as ordering the equipment. 
Is that correct?
    Mr. Gelbard. I don't order the equipment. This is--excuse 
me. This is the Department of Defense. I am sorry, but I can't 
answer for the Department of Defense on this one.
    Mr. Mica. Mr. Chairman, I would ask that our staff look 
into this. This is absolutely uncalled for.
    Now, we have talked about moving to eradication; and we--I 
have a confidential report here that we had 12 aircraft in the 
air on eradication. Then we went down to eight, and now we are 
down to five. Is that correct? Are we now flying only five or 
is this wrong?
    Mr. Gelbard. No, that is not right.
    Mr. Mica. How many are we flying?
    Mr. Gelbard. I have said several times today, Congressman, 
that we have nine spray planes there. We had 11. Two were 
destroyed, including the loss of life. We have increased the 
number of helicopters substantially in Colombia, and we now 
provide something like two-thirds of----
    Mr. Mica. What about the eradication?
    Mr. Gelbard. Can I give you some details?
    Mr. Mica. How many eradication planes are flying today?
    Mr. Gelbard. I am just about to give you the details.
    We have nine U.S. Government-owned Turbo Thrush spray 
planes. We have----
    Mr. Mica. That are flying today?
    Mr. Gelbard. Yes, sir.
    Mr. Mica. What about----
    Mr. Gelbard. We have a Casa-212 transport aircraft, a 
Cessna 208 helicopter or aircraft, three Bell-212 helicopters. 
Plus we have a very large number of helicopters that we have 
provided to the Government of Colombia, to the police, 
including 12 additional helicopters that we gave them last 
year.
    Mr. Mica. What about the status, finally--I guess, my time 
is running out here. It's my understanding, in 1994, that the 
Department of State installed an individual without any prior 
practical or technical experience in counternarcotics operation 
as the director of the NAS, Narcotics Affairs Section, of the 
Embassy. Is that individual still there or the same person in 
charge since 1994, do you know?
    Mr. Gelbard. The individual who is heading the narcotics 
assistance section has been doing an outstanding job. 
Ambassador Frechette obviously feels that this is the highest 
priority in his work; and he spends personally a great deal of 
time on these issues, as does his deputy.
    We have a very large staff in that Embassy. In fact, we 
just hired a retired colonel, whom I personally know, to run 
all of our air assets. The total amount of air assets that we 
have, as I say, is extraordinarily large.
    Mr. Mica. So we have the same person in charge of the air?
    Mr. Gelbard. We have the same person in charge.
    One point I want to make on the 506(a) program, by law the 
equipment provided under that law--under that program--comes 
from stocks and inventories in the U.S. Government. So I am 
confused as to whether anything would be ordered from any 
private companies. But the law states, as I understand it, and 
I could be wrong, that it's a drawdown authority from stocks 
and inventories.
    Mr. Mica. Well, when this is over, I would like to 
introduce you to the vendor, who is in the back. It is also 
stated in here what you would be purchasing.
    Mr. Hastert. The gentleman from Florida, it is time to move 
on.
    The gentleman from Georgia.
    I might add, just for the record, too, you characterized 
that as a confidential report. That was a private sector report 
and not a government report. Is that correct?
    Mr. Mica. Yes.
    Mr. Hastert. Thank you.
    The gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Previously, when we were having a discussion, Mr. 
Ambassador, you mentioned that at some length, as I recall, the 
great steps that Mexico has taken, the laws and so forth; and 
you were very kind to mention the work that my office had done 
in Atlanta in drug cases. Prosecutorial offices, of course, 
wherever they are located, whether they are located in Mexico, 
Colombia or Atlanta, the success of their efforts can be 
measured only by the willingness and the ability of 
prosecutorial offices to carry out the laws that are passed.
    Passing laws that look great on the surface really means 
very little and sometimes can be worse than not passing them at 
all because then it becomes a smoke screen that is held up as 
evidence of great progress that is being made simply because 
they passed these tough laws, but that is not being used, then 
we still have a very serious problem. We all know, I think, 
today that the problem that we have is with extradition and 
that no progress has been made on that. I know the 
administration is trying to get the Government of Colombia to 
do something about that.
    But I think you mentioned Mexico, and I am not really sure 
that Mexico's--that the track record of the Mexican Government 
in recent years really merits a great deal of compliment. Isn't 
it true that we really have just over the last 4 years 
requested literally dozens of extraditions that they have only 
complied in three cases, the Mexican Government, that is?
    Mr. Gelbard. We obviously feel that extradition is one of 
the fundamental tools worldwide, and we have been pressing 
nations around the world to negotiate, implement, ratify, 
implement world class, up-to-date extradition treaties. Let me 
say that we have been very pleased under Attorney General 
Reno's leadership in particular that we have now been 
successful in negotiating a series of new extradition treaties. 
Recently one in Bolivia came under force----
    Mr. Barr. That is fine. I will put into the record that the 
administration has done a great job in these areas. I am 
talking about Mexico.
    Mr. Gelbard. What has happened with Mexico, as I said 
earlier, is that they started for the first time to extradite 
nationals early last year, and this was important because it 
was without precedent. Under their law, it says they can 
extradite people under exceptional circumstances. We obviously 
would like to see them extradite an awful lot more people. I 
don't have the exact numbers that they have extradited so far, 
but we clearly would like to see many more.
    Mr. Barr. It is my information that there have been only 
three, and one of those was a U.S. citizen. So I--but----
    Mr. Gelbard. In terms of U.S. citizens and other nationals, 
I believe--and I would be happy to get you the statistics on 
this--that they have extradited a great deal more. The question 
is really how many of their own nationals have they extradited, 
how many they are prepared to do.
    [The information referred to follows:]

    In 1996, there were 13 extraditions altogether. Two of 
these were Mexican nationals; the others were U.S. citizens or 
other nationalities.

    Mr. Barr. That is the question, and it is my information 
that they have only extradited two. If you have differing 
information, I would be happy to receive it.
    Mr. Gelbard. We have been pressing them to do more. When 
the new Attorney General was just here 2 weeks ago, the 
Attorney General, I, and others, General McCaffrey, have been 
putting them at the very top of our priority list.
    Mr. Barr. I appreciate that, and I understand we have been 
pressing the Colombian Government to do more, notwithstanding 
the problems we have been having with the president himself 
down there. Again, I don't want to beat a dead horse, but I 
feel, and I think you can gather, that maybe some other members 
of the panel share my concern here that we are applying one 
standard to Colombia and a very different standard to Mexico.
    I would like to, in the remaining short period of time that 
I have, to return to an area that we left unfinished earlier, 
although in subsequent discussions you touched on some of the 
things that I was going to mention also. The letter from 
September 1996 concerning the waiver under 506(a)(2), and that 
is fine, although I am concerned, as Mr. Mica is, that there is 
a big difference between the documents being sent forward and 
the action being actually taken to get the equipment in the 
hands of the folks down there in Colombia.
    But again, has there been no effort to look at the other 
waiver authority contained in the same section in the earlier 
paragraph (a)(1) in terms of assistance? I think it is 
particularly important not so much in the large picture but in 
the small picture that our military, if the President would 
look at this, could be getting some much needed equipment down 
there very, very quickly. We know that we are having--they are 
having a problem with the helicopters and delays in getting 
them repaired, the DC-3, the mini-guns which they have expended 
the money on their own because apparently somebody made the 
decision that the use of mini-guns would violate human rights 
or something. But isn't the authority that the President could 
be exercising under (a)(1) a tool that could help here?
    Mr. Gelbard. Let me just get back to the issue under 
(a)(2). According to law, we have to have guarantees about the 
use of equipment, and we now also have to have guarantees about 
human rights provisions. The Colombian Government only gave us 
those assurances on the 11th of this month. We are now moving, 
and we have, the military are moving to move that equipment to 
Colombia rapidly.
    Mr. Barr. Could I just suggest, to help you all out, that 
we have the gentleman here today, and you deal with him on 
regular basis, and he has stated, I think, very accurately that 
tremendous--and he has worked with us in this area; why does it 
take that long? You have the men here. You deal with them on a 
regular basis.
    Mr. Gelbard. Because Ambassador Frechette felt he needed 
assurances from the Minister of Defense, and the Minister of 
Defense just gave it to him now. I am--in the terms of 
506(a)(1), I have got to study that, and I would like to give 
an answer for the record on that.
    Mr. Barr. I would appreciate that very much.
    Mr. Hastert. I would like to state we are going to ask that 
the authorities submit written questions and have those 
questions answered and have the record left open.
    [The information referred to follows:]

    In order to direct that assistance be furnished under the 
authority of section 506(a)(1) of the FAA, the President would 
have to first determine and report to Congress that: (a) an 
unforeseen emergency exists which requires immediate military 
assistance to a foreign country or international organization; 
and (b) the emergency requirement cannot be met under the 
authority of the Arms Export Control Act or any other law 
except this section. On the other hand, in order to provide 
assistance under section 506(a)(2) of the FAA, the President 
would have to determine and report to Congress that it is in 
the national interest of the United States to direct a drawdown 
for, among other things, the purposes and under the authorities 
of chapter 8 of part I of the FAA (relating to international 
narcotics control assistance).
    The assistance being provided to the CNP and the Colombian 
military for CN assistance in accordance with a section 
506(a)(2) FAA drawdown directed by the President on September 
31, 1996, is part of a large package of CN assistance designed 
to strengthen and maintain the CN efforts of a number of 
countries in South America and the Caribbean, including 
Colombia. Under these circumstances, it was determined that 
section 506(a)(2) was the most appropriate authority under 
which to authorize this drawdown, although it is not 
inconceivable that CN assistance could be provided under the 
authority of section 506(a)(1), given the appropriate 
circumstances.

    Mr. Hastert. The gentleman from Ohio.
    Mr. LaTourette. Thank you, and I will be as brief as 
possible.
    In your earlier testimony, you talked about increased 
levels, principally from your budget, dealing with the--
although if I broke it down--22.6 going to 440 million, if I 
remember that correctly. Will the certification decision 
upcoming on March 1st affect the State Department's commitment 
to increasing these dollar amounts in this next fiscal year?
    Mr. Gelbard. No.
    Mr. LaTourette. There is also a----
    Mr. Gelbard. There is a waiver authority, one, against, I 
don't know what the decision will be, but there is a waiver 
authority under the law so we can continue to provide 
counternarcotics assistance.
    Mr. LaTourette. Something that hasn't been touched on yet 
in response to the certification decision in 1996 and in 
response to the polling, and I understand we have a blacklist 
of some little over 300 Colombians that are considered to be 
front companies. Has there been retaliation by the Colombian 
Government either in trade advantages or other activities vis-
a-vis the United States Government or American businesses?
    Mr. Gelbard. I think to a degree there has been. But I 
think it is hard to disaggregate that from the standard high 
levels of corruption which exist. One example was a contract 
recently for their national civil registry which alluded to 
earlier where a German company, Siemens, appears to have found 
ways to gain unfair advantage on the contract, perhaps by 
bribing. Bribes are tax deductible under German law, amazingly. 
They were continually disqualified after they had won the 
contract, by coincidence. Then it came down to between a French 
and an American company, and my understanding was the American 
company was clearly best qualified.
    Ultimately they decided not to award the contract. We have 
seen other cases, and I have heard of other cases from American 
companies, but I think they would prefer I not mention them by 
name.
    Mr. LaTourette. I understand.
    I want to yield the rest of my time to Mr. Mica, but this 
is a published report that it talked about. Even though you 
declined to mention specifically other measures the U.S. 
Government may take, there is a published report today that 
talks about airline flights in Colombia and other things that 
may or may not occur in the course of the certification 
process. If you put--I would appreciate the opportunity to send 
a written inquiry about that. My particular question is the 
impact that it would have on American concerns doing business 
in Colombia. I will be glad to supply this in writing to you, 
Mr. Ambassador.
    With that, I would like to yield the balance of my time to 
Mr. Mica.
    Mr. Hastert. Without objection.
    Mr. Mica. Bob, back to this reason that we can't seem to 
get this equipment. We are trying to get things down to these 
countries that have been cooperating also, and here is a letter 
from the Department of State, September 14th. It says Peru has 
been cooperating, and talks about the great cooperation, and 
they want to get river patrol boats to the Peruvian security 
forces to intercept the cocaine base, asked for the money. You 
said somebody in DOD is holding up some of this. This is your 
money; this isn't FMF.
    Mr. Gelbard. As I said, I don't have the letter in front of 
me, so it is hard for me to answer. Is this the 506(a)(2) 
program?
    Mr. Mica. Yes.
    Mr. Gelbard. That is from military inventories and 
drawdowns. It is off the shelf. Under the law, it is off the 
shelf----
    Mr. Mica. That is not what it says here, because it talks 
about some specifics that will be acquired to--in any event, 
Bob, is there somebody at DOD that is not cooperating that we 
can talk to? We want to get this equipment to them. I don't 
care if it's off the shelf. It is not in the Yungay, where it 
needs to be, or in the Riverine program. So what is the 
problem? You wrote us asking for this in September, or the 
State did, and it is still not there.
    Mr. Gelbard. This is done by the Defense Supply Agency. I 
will be happy to get you specific answers on this within the 
next few days.
    [The information referred to follows:]

    The ``river patrol boats'' will be provided to Peru for 
counternarcotics (CN) assistance as part of the FAA section 
506(a)(2) drawdown directed by the President on September 31, 
1996. This drawdown included CN assistance for a number of 
countries, including Peru. Prior to delivery of any of the 
assistance, we needed to assure ourselves that appropriate end-
use, security and retransfer assurances were in place from all 
recipient countries, and that end-use monitoring systems would 
be effective. Once that process was completed, DSAA was 
authorized to begin to execute the drawdown. On February 21, 
DSAA ordered the Special Operations Command to draw down three 
Boston Whalers, which are scheduled to be delivered to Peru in 
March, 1997.

    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Gelbard. Let me just add I am as frustrated as you on 
this because, when the bureaucracy doesn't move, I know who 
eventually gets blamed. But I also want to see the equipment 
out there, more importantly. I want to see them having this 
stuff that they could use, whether it is airplanes or boats or 
anything else; and it is a source of eternal frustration for me 
when they don't move faster.
    Mr. Mica. Thank you. I will yield my few remaining seconds 
to Mr. Souder.
    Mr. Souder. In a fairness question, you have rejected the 
ability of the President of Colombia to travel on a visa. We 
have a report here that suggests that one of the Governors of 
Mexico has been also in--implied that he is involved with a lot 
of drug money and drug trafficking. Would you be willing to 
look at revoking his visa as well?
    Mr. Gelbard. We look at numerous examples with frequency. 
Our bureau does try to examine this with seriousness, so we are 
prepared to look at all information.
    Mr. Souder. We will followup.
    Mr. Hastert. Just two very quick questions before our time 
is done. First of all, there has been a lot of talk. You talked 
about the efforts of the--some aspects of Colombian Government, 
especially people like Mr. Valdivieso or and General Serrano 
and others. Will you brief the new Secretary of State on the 
progress that Colombia has made, certain aspects before the 
decision on certification or decertification is made?
    Mr. Gelbard. Yes, sir.
    Mr. Hastert. That will happen?
    Mr. Gelbard. Yes, sir.
    Mr. Hastert. In the process, whether Colombia is certified, 
decertified, whether there are waivers, whether there are 
certain areas of aid moved forward, as you talked about, what 
exactly will be the issue or the determinant factors of whether 
there is certification or decertification that will take place 
in this coming year?
    Mr. Gelbard. We have been outlining, as we have each of the 
last several years, specific measures for the Government of 
Colombia which we hope they will undertake during the course of 
this calendar year to improve performance. We have--I can, for 
example, give you a list of things we asked them to do for 
1996. We asked them to attack corruption, pass strong laws and 
regulate the finance industry, insure key traffickers don't run 
their empires from jail, expose front companies, convict major 
traffickers with serious sentences, reconsider the current 
policy of non-extradition of nationals, improve eradication and 
look at granular herbicides, enhance interdiction including 
rapid response by the military, better cooperation and expand 
courts and customs, and so on.
    We are very transparent about this, and we have periodic 
discussions. Ambassador Frechette meets regularly, thanks to 
the excellent cooperation we have had with the foreign minister 
and others, and they go over this every couple of months. I 
have had periodic conversations here with their charge before 
the Ambassador came. We have gone over it in very clear 
specific terms.
    Mr. Hastert. I thank you for your testimony today. It has 
been very candid, and we wish you great success in your work.
    As we welcome two very distinguished generals, I also want 
to recognize two others in the audience, two senators are with 
us today. The two senators have a response to the law for the 
asset forfeiture and the current proposed amendment to the 
Constitution on extradition. We would like to welcome Senator 
Herman Vargas and Senator Claudia Blum. Thank you and thank you 
for being with us today.
    At this time, it is a great pleasure and honor to introduce 
General Serrano. The general has combated internal corruption 
in the police force, captured six of the seven leaders of the 
Cali Cartel. The people of Colombia and the people of the 
United States are indebted to him for his great service on the 
war on drugs.
    With him today is General Bedoya, the decorated, certainly 
accomplished commander in his field. He leads the national 
military. He has brought his forces into the fray to support 
the war on drugs and certainly is a very fine complement and 
leader in this area and works arm and arm with General Serrano.
    We thank both of you gentlemen for being here today, and we 
look forward to your testimony. Because you are a national of 
another country, we will not ask you to swear your testimony. 
We would ask you to begin your testimony, General Serrano. We 
also welcome the translator, Mr. Acevedo.

   STATEMENTS OF MAJOR GENERAL JOSE ROSSO SERRANO, DIRECTOR, 
 COLOMBIAN NATIONAL POLICE; AND GENERAL HAROLD BEDOYA PIZARRO, 
               COMMANDER, COLOMBIAN ARMED FORCES

    Mr. Serrano. Thank you, Chairman Hastert and friends of 
Colombia. It is an honor for me to be here with you today. 
Together with other Colombians, amongst them Mr. Herman Vargas 
and Senator Claudia Blum, those senators that were in charge of 
proposing the bill for the asset forfeiture. Thank you, Mr. 
Hastert and Mr. Mica, for having gone to Colombia to understand 
the problems firsthand.
    From my position as head of the Colombian police, we have 
been charged with carrying out the fight against the 
international narcotics organizations. In less than 6 months we 
incarcerated the heads of the most important criminal 
organization in the world. For those purposes, we had the aid 
and support of the United States, especially with the help of 
members of the CIA and the DEA that work with us shoulder to 
shoulder. We also received help from the Department of State 
through the NAS.
    I have got to tell you, however, that the narcotics trade 
in Colombia is extremely complex. Because having two coasts 
that can be used to bring in precursor chemicals, a coast that 
we, of course, do not build or otherwise--these coasts also 
allow and facilitate the exit of the drugs from Colombia.
    Additionally, we are able to transfer and transport money, 
and it is also very easy for the narcotics traffickers to 
travel by plane. All this means that we have an international 
problem.
    We are all, in part, responsible. The way I believe that we 
need to solve this problem, after having fought the fight for 
more than 10 years, is that we all recognize our own errors and 
we don't start putting the blame on our neighbor. Sometimes I 
hear some countries saying that I'm only a transit country. But 
also in those countries there are people that allow those 
planes to arrive and then they turn around and send the drugs 
on to the countries in which it is consumed.
    I am well aware of many of the details of what is a war. We 
have always received tremendous help from the United States. If 
we had not received that help, the problem today would be even 
greater. There are some people here that do understand this 
very well. For example, General McCaffrey, Mr. Constantine, and 
others as well as many Members and Representatives and Senators 
of this important Congress that understand well the dimensions 
of this problem.
    The work that we do, we do because we believe in it, 
because we are aware of the fact that narcotics trafficking is 
evil. It has injured the world community, and it is the worst 
plague this century has known. We do not want to see our 
children or our grandchildren as drug consumers, nor do we want 
their lives to be taken because they have fallen to drug 
trafficking.
    In Colombia, along with the Colombian Armed Forces, a 
tremendous effort is being undertaken, of course, under the 
direction and leadership of President Samper, because he is the 
commander and chief of the Colombian Armed Forces. Little could 
be done, in reality, if he did not personally support these 
efforts.
    This year a special tax has been imposed--a war tax, $74 
million will be--$74 million will be received through this 
mechanism, and they will be invested in communications 
equipment and other vehicles and in strengthening our 
intelligence apparatus. Those resources, added to the resources 
that we get from the United States, will allow that in the year 
that is before us the final results will be even better.
    You all well know that Colombia has three principle 
problems in relation to narcotics trafficking. Unfortunately, 
we have marijuana that we find through eradication. When we 
approached the end of that problem, cocaine appeared. Now as we 
approach the end of the cocaine problem, the opium poppy 
appears. It is the only country in the entire world where all 
three of these problems have appeared. For these reasons, our 
job is difficult and complex, but in this fight we have 
obtained some satisfactory results.
    In Colombia, the narcotics organizations are true 
multinational entities. They have administrative staff, they 
have managers, they have legal representatives, they have heads 
of security. This is the type of organization that we have had 
to fight, and that is what we have to do.
    I would ask that greater efforts be done on the part of the 
United States to impede the flow of precursor chemicals. 
Without acetone, caustic acid, or sulfuric acid there would be 
no drug production. As far as that is concerned, no efforts 
have been had in that area.
    The amount of money that is moved around and the precursor 
chemical trade is perhaps as big as the amount of money 
produced by the drug trade itself. For these reasons, beyond 
asset forfeiture and money laundering, an effort must be made 
on the part of the international banking community so that not 
as many dollars find their way into this trade.
    One particular narcotics trafficker had $150 million in 
barrels and no bank noticed its movement. Last year tremendous 
efforts were made to eradicate. Mr. Hastert, you personally 
know how difficult it is to actually fumigate in the Colombian 
jungle. Despite all of these difficulties, we have fumigated 
over 40- and 17,000 acres of amapola, or opium poppy, and we 
have destroyed more than 800 laboratories. Last week we 
destroyed a laboratory that had--that was more than 4 
kilometers wide. Last night I was informed of the destruction 
of another large laboratory in the south of Colombia.
    This means that our work is ongoing and permanent and that 
with good help and good understanding this war will be won. The 
capture of different criminals was spectacular last year and 
the year before. After drawing up extensive plans with the CIA 
and the DEA, actions were had against the Cali Cartel, and the 
cartel was brought to its knees. One particular narcotics 
trafficker, Santacruz Londono, was able to initially avoid 
actions of the police; but after 40 days of running from us, he 
died fighting the police. Let that be a lesson to all the other 
narcotics traffickers because we will fight them, and we are 
controlling them.
    But in this war, economic aid is very important. Our 
countries are poor countries, and we do not have all the means 
and resources to throw at this fight. While it is true that we 
do receive aid, it would be important that this aid be 
increased so that we can increase the fumigation efforts and 
the eradication efforts. The only country in the world that 
fumigates is Colombia. In these fumigation efforts we have lost 
five helicopters and two airplanes that have been shot down by 
the illicit narcotics traffickers.
    I would like to clarify something about the presence of 
guerilla groups in the areas in which there are illicit crops. 
It is undeniable that the Colombian guerilla groups have lost 
any remnant of political ideology and that they have now become 
allies of narcotics traffickers. This clarification is very 
important when considerations are being dealt with on helping 
the Armed Forces help us in the fight. If they had helicopters 
or different resources, they could protect us so we are not 
killed while we carry out our activities.
    I would also like to briefly mention the impact that the 
decertification has had. For me it has been very difficult to 
explain to my men that fight--the daily fight and convince them 
and tell them that, while they support our efforts, while they 
admire our efforts and our sacrifices, they still have 
decertified us. I am not a politician nor do I understand 
political considerations, but what I do know is that in my 
country we feel stigmatized because of this decertification. My 
11,000 police officers would be more motivated to continue in 
this fight because, before being police officers, we are 
Colombians.
    On the other hand, the decertification has affected us 
severely in the FMS cases that have to do with the procurement 
of spare parts for helicopters, munitions and explosives, and 
training. I believe that those resources have been sorely 
missed, and I have always believed that the less aid, the more 
narcotics trafficking.
    We have always used all the aid and resources that have 
been granted us as transparently as possible. The results are 
well known to you, Mr. Hastert, and, above all, you know that 
we are committed to this fight. We will not abate. We will win 
this war. We are going to win this fight in spite of the pain 
that visiting the different funeral services of my men that I 
have to go to. One given day I had to go to four funerals, and 
at the end of the day I could no longer cry. I no longer had 
words to explain to the widows of my men why it is that the 
narcotics traffickers have killed their husbands.
    My men are killed in the jungles of Colombia, and they are 
willing to sacrifice their lives because they recognize that 
narcotics trafficking is a plague because it brings tremendous 
stigmatism to Colombia. But rest assured, Mr. Hastert, that the 
great majority of Colombians are honest and are committed to 
fighting this fight. Not even death has kept us from this 
fight. Let me tell you that since 1980, more than 3,000 of my 
men have died. Pablo Escobar in Medellin in 1 year alone had 
500 killed. He used to pay $2,000 per policeman. In spite of 
this situation, we have never, never fallen back. On the 
contrary, we remain vigorous, we remain motivated in the fight. 
You have heard us in the past, and we are willing to continue 
in the future.
    I would like to end giving you a message not as a policeman 
but as a Colombian citizen. My country needs to be certified. 
My men are more motivated when they work as certified. Thank 
you very much.
    Mr. Hastert. Thank you, General.
    [The prepared statement of Jose Rosso Serrano follows:]
    [GRAPHIC] [TIFF OMITTED] T9818.013
    
    [GRAPHIC] [TIFF OMITTED] T9818.014
    
    [GRAPHIC] [TIFF OMITTED] T9818.015
    
    [GRAPHIC] [TIFF OMITTED] T9818.016
    
    [GRAPHIC] [TIFF OMITTED] T9818.017
    
    [GRAPHIC] [TIFF OMITTED] T9818.018
    
    Mr. Hastert. I might ask that we are kind of bumping up 
into some time constraints, so if General Bedoya could 
summarize his statement.
    General Bedoya. Mr. Chairman, members of the subcommittee, 
thank you for having invited me to this meeting. I would like 
to, as the oldest soldier in Colombia and commander of the 
Colombian Armed Forces, express to you the friendship that the 
Colombian Armed Forces have with the United States. That is not 
new, but that was born when many years ago together we fought 
together to defend liberty, freedom, democracy in Korea.
    I want to let you know that the Colombian Armed Forces 
entered into the narcotics fight completely last year. The 
government considered at that time that it was an aggression, 
an attack against the people of Colombia and against the 
country as a whole. It was also decided that the police did not 
have the capacity nor the means to fight groups such as the 
ones that they were fighting.
    Additionally, in the jungles of Colombia, which comprises 
about a third of all of Colombia, it was discovered that the 
large cocaine or drug processing laboratories were protected 
and guarded by groups that have now become terrorist narcotics 
traffickers themselves.
    Last year, last August 30th in the Caqueta region, we lost 
26 soldiers in the battles with the narcotics traffickers. 
Right now we have more than 60 soldiers that are currently 
kidnapped and are in the hands of these narcotics traffickers. 
This is without mentioning the other efforts and other 
activities that we have done in other regions such as the 
Guaviare and Putumayo.
    But this human sacrifice has not been in vain. Beyond this 
we have made significant improvements in the destruction of 
laboratories and in the capture of different allies. With the 
national police, we have been able to work together to fight 
and to defeat the different elements of the narcotics trade. We 
as Colombians understand that we need to destroy the 
laboratories and the plantations of illicit crops wherever they 
may be found in Colombia. But we also understand that the 
problem of illicit narcotics is a regional problem.
    Many other countries such as Peru and Bolivia also fight 
this plague. The United States itself deals with the problem of 
drug consumption. Still other countries produce the chemical 
precursors that are necessary to produce illicit drugs. An 
entire infrastructure has been put into place to continue this 
illicit trade.
    We the people of Colombia have suffered at hands--we have 
suffered at the hands of illicit narcotic traffickers. However, 
our tradition is of freedom, of working toward ending this. 
That is why it is so important that this fight, this war 
against illicit narcotics, that is why it is so important that 
we find allies, that we find co-workers, that we find the 
understanding necessary to eliminate the problem.
    The Colombian Armed Forces have suffered from the 
decertification decision. Our young officers have been unable 
to return to the training courses here in the United States. 
The different types of sales amongst them, the FMS cases are 
currently suspended or otherwise have been suspended. It is 
difficult to understand how it is that in this fight, in which 
all of us must work toward the solution, those of us who are 
fighting the fight in the jungles and in the mountains are the 
ones that actually suffer the effects of the decertification. 
In some areas we don't even have the munitions necessary to 
fight the fight, much less helicopters.
    On the other hand, our common enemy, the narcotics 
traffickers, had at their disposition a fleet of airplanes and 
other equipment, and they have no restrictions on how they 
might purchase things or where they get their money.
    In a frontal fight, you have to clearly determine who your 
enemy is. We are now the enemy. The enemy is internal narcotics 
that is prevalent in the entire world.
    The Colombian people can be characterized as noble, a 
working people, and they also have suffered. We consider the 
United States as our ally in this fight and hope that together 
we will continue to fight and win the battle.
    Last year alone in the activities that were carried out in 
the south of our country, the Colombian Armed Forces spent over 
$24 million of their budget. We destroyed laboratories, we 
destroyed laboratories and other elements that would have been 
able to produce 45 billion cocaine doses, with a possible 
street value of $284 billion.
    Mr. Chairman, thank you for the opportunity to be before 
you today, and with General Serrano, we are ready to answer any 
of your questions.
    [The prepared statement of General Bedoya follows:] 
    [GRAPHIC] [TIFF OMITTED] T9818.019
    
    [GRAPHIC] [TIFF OMITTED] T9818.020
    
    [GRAPHIC] [TIFF OMITTED] T9818.021
    
    [GRAPHIC] [TIFF OMITTED] T9818.022
    
    [GRAPHIC] [TIFF OMITTED] T9818.023
    
    [GRAPHIC] [TIFF OMITTED] T9818.024
    
    Mr. Hastert. I thank both of the distinguished gentlemen 
for being with us here today, and certainly it is an 
unbelievable story to tell. Unfortunately, your colleague 
General Valdivieso could not be with us today, however, we have 
received his statement and that will be included also in the 
record.
    [The prepared statement of General Valdivieso follows:] 
    [GRAPHIC] [TIFF OMITTED] T9818.025
    
    [GRAPHIC] [TIFF OMITTED] T9818.026
    
    Mr. Hastert. Again, gentlemen, we thank you very, very much 
for your presentations.
    General Serrano, one of the things that happened in this 
city just last week was the death and burial of a very 
courageous policeman. You talked about the deaths of many of 
your valiant and courageous men. How many men have you lost in 
the last year?
    General Serrano. In 1996, we lost 36 policemen and 61 were 
injured.
    Mr. Hastert. General Bedoya, how many men did you lose?
    General Bedoya. Last year the Colombian Armed Forces lost 
330 soldiers in action.
    Mr. Hastert. What about the year before?
    General Bedoya. The year before the figures are basically 
the same, but added to this, you have to consider the 60 
soldiers that are currently kidnapped in the south of Colombia 
and 10 who are kidnapped in the Uraba region.
    Mr. Hastert. How about General Serrano?
    General Serrano. The year before, 27 or 28 policemen were 
killed, and these numbers are getting better because the 
Colombian police are learning to defend themselves. But the 
attacks, the ferocity of the attacks has increased.
    Mr. Hastert. Thank you, I certainly award anybody's comment 
at all of you.
    General Serrano, President Clinton's decision to decertify 
Colombia on March 1, 1996, it certainly had detrimental effects 
on the economy and your efforts to fight the war on drugs. How 
did it affect your ability to do your job?
    General Serrano. We were unable to receive $8 million in 
spare parts and munitions, which is what we most use and need 
to fight this fight. We also lost training. Many policemen had 
been coming to the United States to prepare themselves for the 
war. However, there have been efforts on the part of the State 
Department to send us 12 helicopters. It is hoped that those 
helicopters will eventually arrive in Colombia sometime this 
semester.
    Mr. Hastert. The process, the equipment that you needed 
last year, and of course the DC-3 aircraft that you use for 
support and for some of the drug eradication, how do you use 
those DC-3 aircraft and how many are in your inventory and what 
are their approximate ages?
    General Serrano. We have two DC-3s. These DC-3s are World 
War II vintage, but they have been souped up. They have been 
given new turbines, and it is a reliable airplane, but without 
the constant flow of spare parts, they only last 1 or 2 months 
before they need repair.
    Mr. Hastert. How do you use them?
    General Serrano. These are used basically to transport 
personnel to the jungle regions, because they can land on short 
airstrips. They are also used to transport chemicals that are 
needed to carry out the fumigation.
    Mr. Hastert. Have the spare parts that are needed to keep 
these airplanes flying been available?
    General Serrano. Yes. While the spare parts must be asked 
for, eventually they are forthcoming.
    Mr. Hastert. In 1995, you lost a DC-3 in a rather serious 
accident in August. How did that affect your counternarcotic 
activities?
    General Serrano. That airplane was out of service for more 
than a year. It had to be sent to the United States to be 
repaired and was sorely missed while it was not in service. 
However, it has begun to help again.
    Mr. Hastert. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Welcome, General. We are pleased to see you here and 
appreciate your tremendous effort.
    I have a question relating to mini-guns. It is my 
understanding that you began a purchase from the United States 
in 1991 of these mini-guns. Could you tell us what the status 
of that program is and what the need of those weapons is for?
    General Serrano. The story of the mini-guns is a long one.
    Mr. Mica. Well, I have 5 minutes.
    General Serrano. When I was Director, when the General was 
Director of the Antinarcotics Police, the mini-guns arrived, 
but they did not arrive--all of the mini-guns did not arrive. 
The complete equipment that they needed did not arrive.
    Efforts were made to purchase the remaining elements that 
were needed for the mini-guns with our own moneys; but it was 
impossible. I even proposed that from our budget money be set 
aside, and about this I spoke with Mr. Hastert. We are still 
waiting for the authorizations to use them because now 
something has been said about the police being unable to use 
these weapons because they might possibly violate human rights. 
But they are extremely important in the fumigation activities 
and the fumigation runs in which we have lost five helicopters 
and two airplanes.
    Mr. Mica. How would the mini-guns be used again? Can you 
explain that?
    General Serrano. The mini-guns would be used in the 
helicopters, in the 206 helicopters to provide effective 
response when the other helicopters are attacked, in an attempt 
to dissuade these attacks from occurring.
    Mr. Mica. General Bedoya, can you tell me your perspective 
of the problem with these mini-guns, and maybe also the 
timeframe? Was some of this equipment--well, this equipment 
order goes back to 1991, and I guess that some of these 
problems predate the decertification; is that correct? Can you 
give us a little explanation of what took place and the timing?
    General Bedoya. These special machine guns that are being 
referred to here are support weapons that are used to provide 
support to the units that actually fight. Generally, these 
weapons--these are weapons that were used to support troops as 
they exit from the helicopters. These are used to suppress the 
attacks while the soldiers themselves are leaving the 
helicopters.
    Mr. Mica. The problem relating to the acquisition of 
weapons, the parts, predates certification, decertification?
    General Bedoya. Yes, we have had different sorts of 
problems in the different sorts of sales that we have been 
trying to get from the United States, among them the FMS cases, 
for about 4 years. Before decertification came around, the 
problem was some sort of human rights issues that were being 
raised. This has made it impossible for us to receive around 
$35 million of elements that we would either have purchased or 
elements that would have been given to us.
    Mr. Mica. You talked about the guerillas and ELN. Aren't 
they violating human rights, don't they have, at least, last 
count, I thought we had five American hostages?
    General Bedoya. These terrorist groups that you refer to 
last year kidnapped more than 1,000 Colombian citizens and they 
killed another 1,000. These groups carry out illegal 
activities, and of course they do not respect any international 
convention or they do not respect any human rights.
    In the different areas and regions where the narcotics 
production is carried out, there are many people that are 
employed in this production, and when the armed forces arrive 
in the area, these people complain to the armed forces of the 
human rights violations that are perpetrated by these narcotics 
trafficking and guerilla groups.
    Mr. Mica. The mini-guns that we talked about, would they be 
used in this fight against the narco-terrorist guerillas?
    General Bedoya. Yes, these guns would be used to fight the 
narcotics-terrorist insurgence groups.
    Mr. Hastert. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I thank both of the generals, not only for being here 
today, but also for their tremendous work on behalf of all 
ciitzens of both our countries who believe in the rule of law 
and in personal freedom and in continuing the fight against the 
plague of drugs.
    In your view, and I say this to both generals, is the fight 
against narcotics simply a matter of treating it as a disease, 
or is it, in fact, a war against forces of evil who seek to 
destroy the very foundations of our societies?
    General Serrano. To me, it is an all-out war, a war of 
money that comes from illicit sources and destined to the 
injury of our youth. It is a war in which there are no ethical 
values.
    The only thing that really matters is the opulence, without 
heeding the consequences that the people that consume these 
drugs have to face. Narcotics trafficking has indeed changed 
the course that the world has taken. Today many people want to 
get rich quickly through narcotics trafficking instead of 
working. The worse thing is that there are many people that 
believe that narcotics trafficking is a business and not a 
crime. For this reason, it is a war that has to be fought 
because of the effects that it has, the malicious effects that 
it has in world society.
    General Bedoya. Narcotics trafficking began sometime in the 
1980's. We are not traditionally and never have been narcotics 
traffickers. It is drug activities that has made the people of 
Colombia poorer, and has distorted, in many cases, local 
economies and has contributed to the spreading of many 
diseases.
    In this war that has been brought, Colombians have had to 
fight the hardest fight, where we have had to fight an 
international Mafia that uses our country as a production 
center, but that has its foundations in many other places in 
the world as well. To fight this war, just as the term implies, 
we need special laws to fight this war. To destroy not only the 
laboratories and the illicit crops themselves, but also that 
would allow us to capture those that benefit from this terrible 
trade, be they in Colombia or abroad.
    For this reason, it is so important that the United States, 
being the country that it is that is the leader in the fight 
against narcotics, that they understand that the people of 
Colombia are victims of the activities of an internal Mafia 
that benefits from narcotics trafficking.
    Mr. Barr. Thank you.
    I think both Generals made statements that recognized, or 
indicating that they recognize that there is a very close 
connection between the narcotics organizations and the 
guerillas. Has that information been made known to the U.S. 
Government?
    General Serrano. Yes, because the Government of the United 
States has worked with us. In my experience, wherever there is 
cocaine or coca crops or opium poppy, or laboratories, these 
guerilla groups provide protection. We have definitive proof. 
The guerilla has established percentages that they charge per 
kilo of cocaine that is produced.
    They have also established fees for the entry of chemical 
precursors and they have established fees for the use of 
clandestine airstrips and also for the transportation of the 
different elements. All told, we estimate that their share is 
about 25 percent of the value of the cocaine that is produced 
and transported in the areas in which they operate.
    Mr. Barr. Thank you.
    Mr. Chairman, will there be a chance to ask just a couple 
of additional questions?
    Thank you.
    How many guerillas do you estimate are active in Colombia 
right now? We have seen published reports here of 14,000.
    General Bedoya. In order to complement the answer that was 
given to your previous question, I want to let you know that 
here I have documents that have been made known both to the 
Colombian media and the international media, and I personally 
want to give these documents to you so that you can see 
firsthand how it is that the relationship, the old relationship 
between the guerillas and the narcotics traffickers actually 
is. Even though they are dressed in the old ideologies of 
political fight and political insurgency, and unfortunately 
some other countries in the region respond to that disguise, 
they try to justify many times their crimes.
    In response to your current question, currently there are 
approximately 10,000 narcotics terrorists that used to be 
called guerillas.
    Mr. Barr. Is military aid from the United States to 
Colombia being used to defeat the narco-guerillas?
    General Bedoya. The terms under which the military 
assistance from the United States is supplied to Colombia does 
not allow its use in the fight against guerillas. That is 
because there has not been established in the eyes of the 
public a relationship, a direct relationship between guerilla 
groups and narcotics traffickers.
    Mr. Barr. But it is our government leaders that make these 
decisions, and in your view, have our leaders in this country 
been given sufficient information to clearly understand that 
these are one and the same enemy that we are fighting?
    General Bedoya. Locally, it is understood and a well-known 
fact that this relationship exists. Regionally, it is well-
understood and recognized that this relationship exists. Many 
times, much information has been given to the United States 
Embassy in Colombia, and some of that information showing this 
relationship, setting out how it operates, the General has here 
with him, and wishes to give it to the subcommittee so that 
relationship can be more clearly understood.
    Mr. Barr. Thank you.
    Mr. Chairman, might I ask unanimous consent those documents 
be made part of the record.
    Mr. Hastert. Without objection, so ordered.
    [Note.--The information referred to can be found in 
subcommittee files.]
    Mr. Barr. Thank you.
    Would it be or is it a mistake to block the use of funds 
from the United States to be used against narco-guerillas 
simply because some people may say there is no connection 
between the guerillas and the narcotics traffickers?
    General Bedoya. It is a mistake, because in Colombia the 
groups that used to call themselves guerillas are now narcotics 
traffickers. We have films that have been produced by these 
same groups, in which they show themselves producing, 
processing, and trafficking in these illicit substances. That 
is why these groups get so much funding and that is why these 
groups have airplanes and are able to use tremendous resources 
to fight us.
    Mr. Barr. Just one very quick final question, Mr. Chairman. 
I appreciate the extra time.
    Speaking of weapons, can you tell us what sort of weapons 
the narco-guerillas have available and are using to kill your 
men and to stop your efforts to go after them?
    General Bedoya. These groups principally use the AK-47 
that, as you know, has European origin, Eastern European 
origin. They even have rockets and different sorts of munitions 
that come from the same source. There are other types of 
munitions that come from other sources, but they are secondary 
sources.
    Mr. Barr. So would it be fair to say that these groups are 
very well armed, and that your inability to continue to get 
ammunition and defensive weapons systems, such as the mini-gun, 
is putting your men at a real disadvantage?
    General Bedoya. These narcotics traffickers get their 
weapons from the international arms dealers and many times it 
is a drugs-for-weapons exchange.
    Mr. Barr. Insofar as they purchase their weapons with 
money, is that money that is coming directly from drug 
consumers?
    General Bedoya. Yes. Basically the moneys that they use to 
purchase these weapons comes from the areas of cultivation, the 
areas of production, and there is some evidence that they even 
have some exporting capacities.
    Mr. Barr. Do we see any evidence that other terrorist 
groups outside of Colombia are involved?
    General Bedoya. The specific evidence we have is 
specifically related to the FARC, that is definitive. Regarding 
other groups, it is very possible that they also participate. 
We don't have specific evidence as of yet, but we do know that 
they do gain their funds and they do supply the funds that they 
acquire through kidnapping.
    Mr. Barr. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hastert. I thank the gentleman.
    I would like to finish with just a series of questions 
that, if you could just answer them very briefly, what we are 
trying to do is to establish something in the record that I 
think pulls together a lot of your testimony today.
    First of all, on the issue of the guerillas, ELN and FARC, 
originally, my understanding is these groups were freedom 
fighters in their own minds, leftist guerillas that were 
ideologically trying to overthrow the government because they 
believed that their philosophy was superior. Is that still the 
truth today or are they still an ideological group, or are they 
driven by narco-funds, in your opinion?
    General Bedoya. At the end of the cold war they no longer 
could get their funds from other sources, including the Soviet 
Union. Now they get their resources from drug traffickers.
    Mr. Hastert. The other part of that question is, however 
they get their money, are they still driven by an ideology, in 
your opinion?
    General Bedoya. They no longer are driven by ideology. They 
have converted themselves into common criminals and now move 
along those lines.
    Mr. Hastert. To follow up, you say in your testimony today 
that they take approximately 25 percent of the proceeds from 
the drugs grown, manufactured, transported in their areas of 
operation; is that true?
    General Serrano. Absolutely true. The truth is, the sad 
truth is that in that area, the tax collector is the FARC.
    Mr. Hastert. Is it also true, from other testimony that we 
have had prior to today, that these organizations have 
committed transgressions against humanity, they, in a sense, 
have no regard for people's civil rights, and the operation of 
protecting drugs and the growing of drugs, the manufacture of 
drugs and the transportation of drugs is the No. 1 importance; 
human rights are not important to these people?
    General Serrano. They violate all sorts of rights, 
including human rights. In the cocaine processing laboratories, 
we find young children of 13 years old that have been pressed 
into labor. They also exploit women and children, and whoever 
attempts to communicate to the legitimate authorities the 
existence of any movement of cocaine or the existence of a 
processing laboratory is immediately assassinated.
    Each group of these different organizations has a band of 
assassins that they use to make sure that the law of silence is 
enforced and that the different debts are paid. But the worst 
violation they commit is the poisoning of Colombia's youth.
    Mr. Hastert. To follow up on that, could you give me--we 
know that the kidnappings are rampant, that civilian murder is 
rampant. Can you give us a number about in the last year how 
many murders have been committed and how many kidnappings have 
been perpetrated, to the best of your knowledge?
    General Serrano. Last year, in Colombia, there were 1,200 
kidnappings. We were able to rescue 250. Sixty percent of the 
kidnappings that occur in Colombia are carried out by the 
narcotics guerillas.
    Mr. Hastert. How about murders?
    General Serrano. About 10 percent of these kidnappings end 
in the assassination of the people that have been kidnapped. On 
a general level, all told, per year, there are about 28,000 
murders.
    Mr. Hastert. 28,000 murders.
    General Serrano. Yes, 28,000 murders per year.
    Mr. Hastert. Second point. According to other testimony 
that we have been able to accrue, is it not true, systematic 
recruitment of children and kidnapping the children by the FARC 
and ELN have taken place to press these children into service 
for narco-trafficking purposes?
    General Bedoya. In the different documents and in the video 
that we will be giving to you, you will find children of 
different ages that are kidnapped from 10 or 11 years old and 
are kept within the criminal organization all their lives. This 
is a reality that is ongoing in Colombia.
    Mr. Hastert. Is it true that an area known in your country 
as Miraflores, which is approximately the size of the State of 
Texas, that that area is virtually overrun with guerillas and 
narco-traffickers?
    General Serrano. While it was true in the past, ever since 
we started the operations last year, the control of this zone 
by the narcotics traffickers and the guerillas is being 
eliminated. That situation will come under control. It is 
specifically in that area where the efforts to fumigate are 
concentrated.
    Mr. Hastert. The capability to move into that area and to 
control it and the FARC, to fight the guerillas and narco-
traffickers depends upon the use of DC-3s and Huey helicopters 
and other equipment you have got; is that true or not true?
    General Serrano. As far as the police are concerned, the 
ability to carry out these efforts relies on the airplanes that 
are used for the fumigation and on the DC-3s and on the 
helicopters.
    A brief example so that you might understand further: When 
an airplane leaves on a fumigation run, the actual illicit 
crops are to be found more than an hour's flight away and the 
plane must hastily perform the fumigation runs and return so 
that it will have enough fuel to make the entire run. It is a 
completely--it is an area that is completely overrun by jungle 
and that is very far away from the normal means of 
transportation.
    Mr. Hastert. Any holding up of that equipment because of 
decertification by our country to your country has a serious 
consequence of the transportation, the growing, manufacturing 
and transportation of drugs back into this country; is that 
true or not, in your opinion?
    General Serrano. The decertification affects not only 
Colombia's morale but it also affects the logistics of the 
operation. It also divides the countries into supposedly, good 
guys, and supposedly, bad guys. It has a direct effect on the 
ability to procure spare parts, in the procurement of weapons 
and explosives.
    Mr. Hastert. In effect, you are facing, basically, a civil 
war within your nation because of this constant turmoil driven 
by the profits from narcotics. How much longer, with limited--
maybe this is not a fair question. With limited ability to 
fight these problems, how much longer can you sustain this 
without added help?
    General Serrano. It is a war that is being fought between 
the narcotics traffickers and the Colombian Armed Forces. We do 
not know how long it will take to see what effects the 
reduction in the entry of precursor chemicals, on the reduction 
in consumption. All of these different elements, we do not know 
how long it will take for them to have an effect on the war.
    Without help, narcotics trafficking will rise, and without 
help, without aid, we will not be able to last for very long. 
The antinarcotics division of the police is--uses fundamentally 
the assistance that is received from the United States. Without 
that assistance, they could not function the way they do.
    General Bedoya. In Colombia, there is no civil war as such. 
What we are talking about are simple criminal activities of 
narcotics traffickers and terrorists that direct their 
activities against the Colombian institutions and the Colombian 
people themselves.
    Mr. Hastert. I think the use of civil war is probably a bad 
choice, but it is an imperative struggle between, in essence, 
good and bad.
    For the record, so that the record is clear, and whatever 
other record that we have been able to establish here today, 
has President Samper ever prevented either one of you from a 
wholesale attack on narco-traffickers?
    General Serrano. Never. In the 2 years that I have been the 
director, there has never been any interference in our 
activities. Quite to the contrary, before we were able to 
capture the members of the Cali Cartel, there was a lot of 
pressure that we get that done.
    Mr. Hastert. Thank you.
    I want to put myself out on a limb, two things I would like 
to say. First of all, I try not to put myself on a limb very 
often, but General Serrano and General Bedoya, certainly your 
efforts, I think, have been heroic. That is in the reports we 
have had, I was able to confirm that visiting your company, I 
was able to talk to many, many people in your country, in the 
southern hemisphere, and in this country.
    General, your efforts are certainly our best hopes for the 
plague that is upon us, upon our children, upon this country, 
and upon the citizens that want to live a decent life. It 
affects our people almost as badly as it affects your people. 
We hope that we can win this war and that we can have peace 
from the plague of drugs.
    It takes a great effort on nations and politicians, elected 
officials, and people who serve your country such as yourself. 
I think, I don't know how you would ever put together a 
nomination for a Nobel Peace Prize, but I think you are 
certainly deserving by your fine effort. I hope that we can say 
we support you and this country is behind you all the way. When 
you have to talk to the next widow in the next funeral you go 
to, I hope you express that we stand behind you as well.
    Thank you for your testimony.
    At this time, I would ask for our final panel to come 
forward. Certainly it has been an overwhelming experience today 
to have the first two panels before us, but you will not be 
disappointed in the third panel, I can tell you that.
    I would like to welcome at this time, Ambassador Morris 
Busby and Major Andy Messing. Ambassador Busby served as the 
United States Ambassador to Colombia. I have been able to visit 
Colombia, have the privilege and the benefit of his insights.
    Major Messing has retired from the Army after 21 years of 
distinguished service, including service in Special Forces and 
Special Operations for over 18 years. He has had firsthand 
experience in the jungles of Colombia.
    Gentlemen, if you will both stand and raise your right 
hands, our committee rules require me to swear you in.
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative.

STATEMENTS OF MORRIS BUSBY, FORMER AMBASSADOR TO COLOMBIA; AND 
    MAJOR F. ANDY MESSING, JR., UNITED STATES ARMY (RET.), 
    EXECUTIVE DIRECTOR, NATIONAL DEFENSE COUNCIL FOUNDATION

    Mr. Hastert. Thank you and please proceed with your 
statements. And, Ambassador Busby, if you will begin.
    Mr. Busby. Mr. Chairman, thank you.
    I would like to thank the committee for the opportunity to 
appear here today. I have submitted for the record a short 
statement, and, since the hour is going on, perhaps I could 
just hit some of the high points.
    I was in Colombia at the time that President Samper was 
elected and participated in the early moments of disintegration 
of the relationship between the United States and Colombia.
    I am, as you will notice from the statement, somewhat 
critical of our handling of United States-Colombian relations 
in the ensuing couple of years.
    Mr. Hastert. Mr. Ambassador, would you pull your mike up a 
little bit closer, please.
    Mr. Busby. Sure.
    Mr. Hastert. Thank you.
    Mr. Busby. In saying that I am somewhat critical of the way 
we have handled this, let me also say that certainly Mr. Samper 
gets no kudos from me. I would also like to take this 
opportunity to add my voice to those of the many brave and 
thoughtful Colombians who have called for him to relinquish the 
office of the presidency so the country can begin healing 
itself.
    Having said that, it is awfully easy to sit here and 
criticize what others have done.
    I firmly believe that the tools which you, the Congress, as 
well as the administration have given to the hands of our 
policymakers are inadequate. There was a lot of talk here this 
morning about the certification process. I greatly fear that, 
as it has evolved, the certification process tends to dominate 
useful policy. We see what was described here today, million-
dollar ads in Forbes Magazine, lots of public relations.
    The kind of strictures and restrictions that are placed on 
our policymakers in that legislation I think need to be 
reviewed.
    I was, at one time, the deputy chief of mission in Mexico 
when Enrique Camarena, our DEA agent, was killed. I was 
Ambassador to Colombia for 3 years, and I will tell you that in 
circumstances such as those, strict adherence to the 
legislation as it is currently drafted is a hindrance rather 
than a help to rational policymaking.
    As my first statement, I would like to say that I would 
recommend that you and the administration review that 
legislation to make sure that, as you are currently applying 
it, and it has the intent that originally was designed. That's 
not to say that I am critical of congressional oversight and, 
in fact, as a former member of the executive branch, I will 
tell you that I very much recommend to you that you exercise 
congressional oversight. It is just that policy has tended to 
be made in a public forum where I think oftentimes subtle and 
delicate initiatives die a very sure death.
    Mr. Chairman, you asked me to specifically comment on the 
types and amounts of support that the U.S. Government should 
provide to the Government of Colombia. I greatly fear that, 
given the animosity that we currently feel toward the Colombian 
administration, that the situation in Colombia is not going to 
improve as long as Mr. Samper is in office. I would certainly 
hope that, until that occurs, we do not abandon the cause for 
which so many Colombians have given their lives. I have the 
greatest admiration for the gentlemen who just appeared before 
you, and I think they deserve our support. In fact, I do 
believe that it is essential that we as a government continue 
to support the Colombian counternarcotics forces.
    As much as we disapprove of Mr. Samper, we should recognize 
that it's unlikely that he is going to depart before the end of 
his term. There's no doubt about our animosity toward him. We 
have taken away his visa. What more public demonstration could 
there be? I think it's ludicrous to argue that giving aid to 
the counternarcotics forces is going to help him politically or 
that to withhold it is going to weaken him further. The die has 
been cast, and we should act in what is our own self-interest.
    I also could not help smiling as I heard some of the 
questions and answers relating to the so-called guerrillas in 
Colombia. I will tell you with certainty, Mr. Barr, and Mr. 
Chairman, that during the entire 3 years I was there, I sent 
reams of paper and facts and figures laying out for the 
government, our government, the relationships between the FARC 
and the ELN and the narcotics traffickers. I made countless 
recommendations that we should, in fact, recognize that 
relationship in policy and that we needed to work with the 
Colombian military and the Colombian police in combating the 
ELN and FARC. I had these mental images of the Washington 
establishment sort of levitating and shaking every time I would 
send these cables up.
    My sense has been that the problem is twofold. One, there 
is a broad perception that, if we were to work with the 
Colombian military and police on the FARC and the ELN problem, 
that somehow we are going to get ourselves immersed in a 
terrible human rights problem. The second problem is that I 
think that we, as a government, recognize the complexity of 
this situation and have decided not to get involved in it.
    But to my mind, I will tell you that I am firmly convinced 
that, so long as the FARC and the ELN continue in the numbers 
that they are and so long as they continue their relationship 
with the narcotics traffickers, we can pour money into Colombia 
on counternarcotics. But if we continue to say it can only be 
used for counternarcotics purposes, and we have these very, 
very tight, end-use provisions that we have to adhere to, you 
will not solve that narcotics problem in Colombia.
    That may not be true elsewhere, but in Colombia, the two 
are so inextricably linked that it is a true head-in-the-sand 
attitude to think you can look at counternarcotics and not look 
at the FARC and the ELN in that relationship. I think that is 
something which this committee could perhaps take a leadership 
role in.
    Finally, Mr. Chairman, I would like to make a point that 
has been alluded to but no one has addressed it directly, and 
that is I would like to recommend that you and your colleagues 
consider the funding levels for some of the infrastructure 
development programs. By that, I am referring to programs to 
aid in the administration of justice and, in particular, 
military and police training. I think that these are programs 
which have tended to fall by the wayside as a part of the 
certification process and there's nothing that we do in these 
countries which is as valuable and which has such long-term 
benefits as bringing Colombian police and military officers to 
the United States for training, having a true interaction 
between our military and police, who function in a truly 
democratic society, setting an example for them and providing 
them with the tools that they need. The same thing is true with 
the administration of justice program. There was a $34 million 
program when I was in Colombia. I was very strongly supportive 
of it.
    The institutions of government, and in particular the 
institutions of justice in these countries, are very weak and 
it is something that we need to work on if we truly are looking 
for a longtime solution.
    Mr. Chairman, again, thank you for the opportunity to 
testify before you, and I will respond to any of the questions 
that you or any other members may have.
    [The prepared statement of Mr. Busby follows:] 
    [GRAPHIC] [TIFF OMITTED] T9818.027
    
    [GRAPHIC] [TIFF OMITTED] T9818.028
    
    [GRAPHIC] [TIFF OMITTED] T9818.029
    
    [GRAPHIC] [TIFF OMITTED] T9818.030
    
    [GRAPHIC] [TIFF OMITTED] T9818.031
    
    Mr. Hastert. Thank you, Mr. Ambassador.
    Mr. Messing, Major.
    Mr. Messing. Thank you, Mr. Chairman, for allowing me to 
testify. As the executive director of the National Defense 
Council Foundation in the study of antidrug operations, I have 
been to Colombia nine times since 1985, my last trip being in 
mid-January. Coincidentally, since you mentioned Miraflores, 
that's one of the end points that I went to.
    Colombia is 1 of 15 countries that I have been to in 
analyzing this dark side capitalist phenomenon which adversely 
affects America on socioeconomic, political and security 
levels.
    In my first trip to Colombia, the American Embassy staff 
arranged for me to visit the then ``special anti-narcotics 
unit,'' SANU. This group of heroic men were in the first 
element of drug fighters which were supported by American 
agencies. Ironically, at the time, they were not really 
supported by their own government, and most of the men I met 
with then have since been killed.
    However, times have changed. In my latest visits, it is 
clear to me that the key government elements are dedicated to 
reducing the drug threat to their society and ours.
    Accordingly, the catalytic event to their metanoia was the 
assassination of a Presidential candidate in 1989. That rocked 
their nation and awakened their nomenclature. They finally 
understood that this was no longer just a Gringo problem but 
their problem, too. It actually became a threat to their 
national security, their sovereignty and their way of life. 
They then understood that this tiny group of narcissistic and 
hedonistic criminals were impacting their ability to have a 
democracy and operate a positive light side capitalist 
structure. Because I bifurcate capitalism into dark side and 
light side capitalism, and it gives you an ability to talk in a 
different level when you do that.
    Every part of their society, i.e., their politics, their 
sociocultural and economic being, and their safety was in 
jeopardy. It was no longer--it no longer was a cash cow to 
jump-start their economy, as their economy had its own 
vitality, as has already been testified to. Plain and simply 
put, it became a contest of survival.
    Fortunately, there was a stalwart and honest core of 
Colombians that were prepared to lead the counterattack against 
this strong and greedy foe. Men like General Serrano, who just 
testified, and women like Foreign Minister Emma Mejia, 
understood the risks and acted in the best interests of all. 
Now, they need our help to press this counterattack on this 
transforming and growing scourge.
    In the late 1980's, the initial drug operators were urban 
based, dark side businessmen. By the mid-80's, their buying 
power allowed them to rent key guerilla elements to provide 
them security, buy off authorities, they were able to buy off 
authorities and buy into legitimate businesses. When they 
committed acts that went beyond the pale in the late 1980's and 
into the early 1990's, the key groups in government which were 
led by the then-vetted national police, went after this heinous 
leadership.
    As this management group was rolled up in the early 1990's, 
America's support, which had been increasing and as a matter of 
fact, under a lot of the leadership of Ambassador Busby sitting 
next to me, reduced markedly beginning in January 1993 with the 
election of a new administration. At the same time, the rural 
based guerrillas who had been the apprentices to these drug 
lords filled the void left by apprehended drug lords.
    As this all occurred, America effected a reduction in 
support and even applied decertification into the mix, because 
of the Samper equation. This--because of this, a scandal 
emerged focusing on Colombian President Samper having taken 
some $6 million into his election efforts from drug sources.
    Like our own President Clinton, who is caught up in a 
similar problem with the Indonesian Lippo Bank, and now we are 
finding out the Chinese Government infusing money into--
allegedly infusing money into the democratic mechanism, party 
mechanism, Samper has allowed antidrug forces to strike at the 
heart of drug apparatus in the interests of all concerned.
    Meanwhile, as a distortion of this picture, the State 
Department and select others have harped on a flawed strategy 
of bifurcating the now drug guerrillas from the drug trade in 
spite of overwhelming open source evidence to the contrary. 
This is an important point I might bring up, and even a U.S. 
Interagency Intelligence Report proving this fact, which the 
administration is not releasing until apparently after the 
March certification issue is settled.
    This affects our support and modus operandi in addition to 
interjecting the Presidential politics of both countries. Alas, 
and in a curious fashion, nowhere is to be seen the United 
States or international environmental or animal rights groups, 
as thousands of square miles of virgin, triple canopy jungle 
and millions of animals and fish have been eradicated while 
rivers have been polluted from drug chemicals because of the 
drug trade. Furthermore, human rights groups seem reluctant to 
comment on the rights of victims of the drug trade or against 
the drug guerrillas. Additionally, and in that regard, four 
Americans are being held hostage by these elements as we speak. 
Several--three of the hostages have been held for over 4 years.
    In conclusion, the confusing combination of politics, 
economic interests and other factors should not hide the 
salient fact that to not help the good guys in Colombia and 
elsewhere, those in the first trench of the drug war, will mean 
America will have to deal with the problem closer to home, 
initially on our border but then in our neighborhoods. Each 
time it gets closer to us, it is more expensive in terms of 
lives and money. To be even more plain, to not help our 
friends, maybe even hurt them, means an additional 40 to 50 
tons of cocaine and 1 to 2 tons of heroin, worth over $500 
million, on to our streets in the next 12-month period.
    This will cause an additional $50 billion to $60 billion 
worth of collateral damage to America. The question to this 
august body, are you prepared to act to prevent this?
    America can engage in antidrug actions while not 
sacrificing our principles and promoting better conduct on the 
part of our allies. We need to not act like a kid taking away 
the football so the game stops, causing volumes of good guys 
and innocents to die in Colombia and paving the way for 
increased turmoil in our own country. Therefore, this 
foundation recommends that the certification of Colombia go 
forward immediately, as it is in the best interest of both 
countries. This, with the understanding made with Colombia, 
that the rule of law and human rights are an important aspect 
in the conduct of this conflict.
    Thank you, Mr. Chairman.
    I would also like to ask that a confidential report that we 
had made in the past few days, which we have embargoed until 
today, be admitted into the testimony.
    Mr. Hastert. Without objection.
    Mr. Messing. Thank you, sir.
    [The prepared statement of Mr. Messing, and the report 
referred to follow:] 
[GRAPHIC] [TIFF OMITTED] T9818.032

[GRAPHIC] [TIFF OMITTED] T9818.033

[GRAPHIC] [TIFF OMITTED] T9818.034

[GRAPHIC] [TIFF OMITTED] T9818.035

[GRAPHIC] [TIFF OMITTED] T9818.036

[GRAPHIC] [TIFF OMITTED] T9818.037

[GRAPHIC] [TIFF OMITTED] T9818.038

[GRAPHIC] [TIFF OMITTED] T9818.039

[GRAPHIC] [TIFF OMITTED] T9818.040

[GRAPHIC] [TIFF OMITTED] T9818.041

[GRAPHIC] [TIFF OMITTED] T9818.042

[GRAPHIC] [TIFF OMITTED] T9818.043

[GRAPHIC] [TIFF OMITTED] T9818.044

[GRAPHIC] [TIFF OMITTED] T9818.045

[GRAPHIC] [TIFF OMITTED] T9818.046

[GRAPHIC] [TIFF OMITTED] T9818.047

[GRAPHIC] [TIFF OMITTED] T9818.048

[GRAPHIC] [TIFF OMITTED] T9818.049

[GRAPHIC] [TIFF OMITTED] T9818.050

[GRAPHIC] [TIFF OMITTED] T9818.051

[GRAPHIC] [TIFF OMITTED] T9818.052

    Mr. Hastert. Thank you, gentlemen.
    Representative Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Ambassador Busby, were you here for the testimony earlier 
today?
    Mr. Busby. Yes, sir.
    Mr. Barr. OK. Then both by way of that and by way certainly 
of your own personal background in service to our country, you 
are well aware of the things that we have been talking about, 
including the references to the--let me get the citation here--
22 U.S.C. Section 2364, the provisions under both (a)(1), 
regarding the President's ability to furnish assistance 
notwithstanding other findings and other laws, as well as 
subsection (a)(2), regarding sales. In your experience and with 
your knowledge of these sorts of authorities and how they have 
been used or not used in the past, is it appropriate to 
recommend consideration by the President of the authority under 
(a)(1), as well as under (a)(2), to try and get as much as we 
can to the enforcement authorities in Colombia to meet the 
challenge posed to them by the narcotics and grower groups?
    Mr. Busby. Well, I confess to you that I am not as familiar 
with the law as what you give me credit for. In the broadest 
sense, let me just say that I think that absolutely we need to 
find a mechanism, either within that law or we need to modify 
that law, which will permit us to express our extreme 
displeasure with the political leadership of a country such as 
Colombia, and we are displeased with them and we should be 
displeased with them, but at the same time permit us to go 
forward with assistance to gentlemen like Generals Bedoya and 
Serrano. Absolutely that is what we should do if there is 
agreement, from a policy point of view, between the 
administration and you gentlemen.
    Now, how one goes about doing that and whether you can do 
that within the structure of the legislation as it currently 
exists, I am not sure. That would be something which the 
lawyers would have to examine.
    I will also say that in my experience, often people on both 
sides of that question hide behind that law. I think that if 
everyone agreed, we would always find a way to get around the 
restrictions of the law. But from a policy point of view, 
absolutely what you are suggesting is what I would recommend; 
yes, sir.
    Mr. Barr. Thank you.
    I have really been quite impressed with the imaginative use 
and interpretation of Federal laws by this administration when 
they want to. For example, last year, we heard testimony from 
some individuals from this administration with regard to how it 
is that the resources of the FBI can be used to investigate a 
purely domestic crime in Haiti. There are a number of folks, 
including myself, that suspected that decision was made for 
purely political reasons, not under Federal laws. And I have a 
serious question about their very imaginative and very broad 
interpretation of that particular statute.
    Yet in this case they seem to be relying on very, very 
pinched legalistic definitions and interpretations of these 
laws such as prevents, for example, as we heard from the last 
panel, the use of even the limited military assistance that 
this administration is willing to provide to the army and to 
the police forces down there, telling them they can only use it 
to go after the narcotics people and not the guerrillas when, 
in fact, I think that it is very, very well documented and well 
known to this administration and prior administrations that the 
two groups really are operating hand in hand. I don't know if 
there's a question in all of that, but something that you said 
triggered that.
    Mr. Busby. Let me put myself back into one of my previous 
incarnations.
    I went through something very similar to this, about 3\1/2\ 
or 4 years ago, and I was very, very intent on gaining some 
public recognition from the U.S. Government that there was a 
linkage between the narcotics traffickers and the guerilla 
groups. I mean, that was my objective, to do that, because if--
once we could establish that, then, of course, the next step, 
which was beginning to work with them on the guerilla problem, 
became easier.
    People basically said: Well, if you want to do that, you go 
right ahead but expect to be sued, expect someone to come up 
and use the law against you as a public official for not 
adhering to the end-use provisions that are built into the law 
that say you will not use this equipment for anything other 
than counternarcotics purposes. If you want to make the policy 
determination that going after the FARC is a counternarcotics 
purpose, do so at your peril.
    Those are the kinds of problems that you run into when you 
have conflicting legislation and people who take various 
positions on various issues. That's a serious thing.
    Mr. Barr. Not exactly a standing-tall foreign policy type 
decisionmaking process.
    Mr. Busby. I like to think that I stood as tall as anyone; 
but when someone tells me that I am going to jail because I 
make a policy determination, I tend to listen to what they say.
    Mr. Barr. Well, I would question that sort of advice. I 
mean, when I was in the executive branch at the CIA, for 
example, we would go to legal counsel to make sure that there 
is a way within the bounds of the law to do something. If you--
if the question is posed to these folks, give me a reason not 
to do something, now that's a lot easier. But I am somewhat 
disturbed, particularly in light of what the former two 
witnesses, the two generals from Colombia have told us, that 
there is very, very clear documentation, well known to this 
administration, that these two groups, the guerilla groups and 
the narcotics trafficking groups, are operating essentially as 
one organization, one paying the other a large percent of the 
profits, and yet they rely on these very pinched 
interpretations. I suspect it's for policy reasons they have 
made that decision because they want to.
    With regard to the specific--the specific point--one other 
specific point that I forget which one of the generals made, 
that it would help them tremendously if we could take a look 
here in this country at perhaps strengthening or modifying in 
some way our laws to prevent the introduction of precursor 
chemicals into Colombia, are you familiar with that? Are there 
some specific things, perhaps from a policy standpoint, in your 
experience, that you could tell us that we should specifically 
be looking at there?
    Mr. Busby. Yes, sir. We in the United States some years ago 
began to recognize that tracking precursor chemicals and 
tracking money was really a very effective way to get at the 
organizational infrastructure of the traffickers. We, the 
Americans, have done a pretty good job at that, in my opinion.
    Where you run into problems, in my experience, and I saw 
this in Colombia, is when you try to take the next step and 
engage the international community, when you go to the Germans, 
to the French, to the Swiss, to other manufacturers and say 
that we want you to impose on your industries all of these 
tracking provisions and end-use provisions for chemicals that 
are precursors. That has been an international initiative 
which, in my experience, has gone virtually nowhere.
    We have tried to do that with the Colombians and certainly 
under Cesar Gaviria, the previous president, they were very 
much in support of that.
    I am not aware, frankly, that we, the United States, are 
deserving of any rocks being thrown our way on that. We have 
taken some really very effective measures. But I do believe 
that the international community--that it's an initiative which 
we need to pursue and pursue very strongly.
    I tend to believe in the efficiency of that. I do think 
that if you could cutoff the flow of chemicals--money without 
saying, but if you could cutoff the flow of chemicals or put 
some real strictures on that, you could put--you could put the 
traffickers at considerable risk. A lot of those chemicals come 
up river from Brazil.
    Mr. Barr. There is no initiative from the administration at 
this point to even look at that, much less propose legislation, 
is there?
    Mr. Busby. I am sorry. I have been out of the government 
for a couple of years. I really don't know the current state of 
play.
    Mr. Barr. OK. There isn't.
    Mr. Messing, you, as Mr. Busby, have experience in a lot of 
different countries, including Colombia and another country 
mentioned today, Mexico. From your background and knowledge of 
the--both the political and the police and military situations 
in both of these countries, could you just very, very briefly 
compare the integrity and the efforts of the Colombian anti-
narcotics efforts, particularly General Serrano and his troops 
and General Bedoya and his troops, to their counterparts in 
Mexico?
    Mr. Messing. Well, you have to understand that these 
organizations will always have some thin layer of corruption, 
as our own police forces do and our own military does in some 
respect. I mean, there will be a very thin layer of corruption 
in both of the militaries. You will have some group that will--
a cellular group that will be involved in death squad 
activities. You will have some very small group that will be 
involved in corruption; they have been corrupted by the drug 
lords. But for the most part, the Colombians have had an 
aggressive program, particularly in the police, to vet their 
elements. As a matter of fact, several years ago, there were, 
you know, literally 6,000, to 7,000 police vetted from their 
national police force over a period of time.
    This is a good indicator. It shows progress toward them 
doing the right thing. So in terms of whether I am comfortable 
with the Colombian national police versus the Mexican national 
police, who haven't gone through this severe vetting program 
like the Colombian national police, I would prefer to work with 
the Colombian national police.
    But having said that, you always have to encourage them to 
continue vetting and, you know, the police and the military.
    One of the programs that the Ambassador mentioned has an 
astounding effect on the viability of these forces. It is joint 
training that we have with those elements. It's very important, 
because they learn through osmosis and directly that human 
rights is important; that proper conduct is important. They 
learn civic action. They learn a whole plethora of ideas from 
us that they take back to their country, and these ideas will 
help the police and military move toward the democratization of 
their country while lowering levels of violence. That's what 
this is all about.
    Mr. Barr. You did mention the term civil rights--human 
rights and we talked about that, as you know, from being here 
during the previous two panels. Would you and, Ambassador 
Busby, if you could both just comment very, very briefly on 
this human rights issue, and in particular where should the 
real focus of our concern over human rights violations in 
Colombia be with regard to the narcotics traffickers and the 
narcotics organizations and the guerrillas or with the police 
and military forces, which we all know in any country, as you 
said, are not perfect. Where ought to our concern over human 
rights be?
    Mr. Busby. Well, let me just say several things about that, 
because it was an issue that was of great concern the whole 
time I was there. First, I think it is indisputable that there 
are human rights problems within the police and the military in 
Colombia. The evidence is clearly there.
    Having said that, it is also indisputable that the 
leadership of those organizations neither condones it nor 
supports it and, in fact, are working very, very hard to try 
and root out human rights abuses. They do try and train their 
people. There is no institutional bias toward human rights 
abuses but, rather, the contrary.
    Mr. Barr. That, I think, is a very important distinction.
    Mr. Busby. Yes, sir.
    My feeling is that many of the human rights abuses in 
Colombia occur because they are--it may not be a civil war, but 
they are a country at war with themselves. Because of the 
immaturity of the justice system, both civilly and within the 
military, that police and military many times feel enormous 
frustration, that they can go arrest somebody or they can do 
these things and nothing ever really happens. And, therefore, 
out of frustration----
    Mr. Barr. Something else may happen.
    Mr. Busby. Something else happens.
    Mr. Barr. Like the frustration in this country sometimes.
    Mr. Busby. That goes to the point I tried to make at the 
end of my very brief statement.
    I think one of the focuses of our efforts should be on 
building those institutions up so that, in fact, you remove 
that level of frustration and, in fact, you bring the rule of 
law to these countries.
    It's very, very underdeveloped in Colombia, although they 
have made some attempts to overhaul their justice system. But 
there's a long way to go.
    Mr. Barr. Excuse me. Does decertification help that process 
or hamper it?
    Mr. Busby. Oh, I think it hurts it. I mean, I think the 
whole certification process, as I have said to Congressman 
Mica, who helped draft that legislation, I am rather critical 
of that because I think it does, in many ways, hinder our 
ability to pick and choose what we want to do.
    Mr. Hastert. The gentleman's time has expired.
    Mr. Busby. Let me say one additional thing, just following 
up on the previous question. I think that one of the 
initiatives that we had under way, and I spoke to President 
Gaviria about it many times when I was there, is that the 
process by which we select our police officers and train them 
or our military officers or our government officials is very 
different from what you have in these countries. If you--as you 
well know, if you want a security clearance in the United 
States, you get investigated. You have people talk to your 
family. They talk to your neighbors. There is an extensive 
background investigation that is done on you before you are 
given access to sensitive information, and there is 
psychological training for policemen, and so forth. None of 
that exists. None of that exists.
    I went to see a ranking cabinet officer once in Colombia, 
and she said, ``I am really very worried about, you know, 
information leaking out of my office, and so forth, and I think 
it's my secretary.''
    I said, ``Well, who is she?''
    I don't know. I don't know, you know.
    I went into, well, how are these people selected?
    Well, they are just hired.
    So you have to understand, it's also a very, very difficult 
proposition to work in some of these countries trying to decide 
who do you work with, who do you not work with, who is corrupt, 
who is not corrupt. You only decide that over a period of some 
time, sometimes years, making decisions on who you think you 
can trust.
    So all of these things are correctable, and I think that 
they are something that deserves some emphasis from a policy 
point of view on our part.
    Mr. Hastert. The gentleman from Florida.
    Mr. Mica. Thank you, Mr. Chairman.
    Ambassador Busby, I heard your comments relating to the 
certification law, and I probably have to agree with you that 
it hasn't been that effective with Colombia because we don't--
we really don't even have a handle on that country that the 
legislation was originally intended to give us leverage with.
    But I am wondering what you think could be an action by 
this Congress or this administration to show the Colombians and 
others that we mean business. How can we get their attention on 
this matter?
    Mr. Busby. Well, sir, with regard to the Colombian 
leadership, as I said, I find it hard to think of anything else 
we could do to display our animosity toward Mr. Samper and the 
people around him. I mean, we have taken his visa. We have 
publicly castigated him. We have done virtually everything 
possible to let him know that we don't like him. As I said 
earlier, he gets no kudos from me, either.
    The problem I have is that the structure of the 
legislation, as I understand it, oftentimes does not allow you 
to pick and choose what you are going to do in a particular 
country. I think it is--has been not very helpful to cutoff FMS 
sales to Colombia. I think that that's just--we should have 
avoided that somehow.
    I also think that, although there are certain times when 
public debate on things like this is very useful, sometimes it 
is a hinderance to trying to solve the problem because 
everybody tries to make political points.
    What I think should happen is that the Congress and the 
administration should sit down and look at the whole range of 
interconnecting legislation that applies to these kinds of 
situations and try to perfect it, try to make it better, more 
useful, more flexible, perhaps. I know that implies a certain 
level of working together that isn't always there, but I 
sincerely believe that.
    Mr. Mica. Well, another one of the problems we have, and 
Mr. Hastert saw it and his predecessor, Mr. Zeliff, who chaired 
this subcommittee, saw the same thing, is this approach and the 
legislative remedy or the administrative remedy covers a number 
of legislative committees of jurisdiction, a number of 
agencies.
    We had written to the drug czar asking that the President 
request a waiver, and I think that he doesn't--the drug czar 
really doesn't have any authority. He is sort of a fancy 
coordinator. But we face the same problem here because the 
solutions are handled by State, by the Department of Defense, 
by the Department of Justice and by other Federal agencies.
    Do you see any solution to our jurisdictional problem, any 
recommendations?
    Mr. Busby. Well, I know, of course, of your long record and 
the chairman and other members on this committee of trying to 
resolve some of these organizational issues. I will tell you 
what I honestly think, and that is that the only person who can 
really bring order out of this and make it work is an elected 
official, and that's either the President or the Vice 
President.
    I tend to believe that the Secretary of State is never 
going to tell the Secretary of Defense how to spend his money. 
Nor do I think that General McCaffrey for all of his abilities 
is going to tell the Secretary of State how to conduct foreign 
policy, no matter what his so-called title might be. But you 
correctly, I think, perceive it, that it is just a coordination 
role.
    Mr. Mica. Well, I think it has been a lack of executive 
leadership, and that's definitely a problem; no interest in the 
issue, or limited interest until of late. Then we see the 
bureaucratic morass.
    Now, State had--we talked about FMS and the President does 
have authority to grant a waiver. I cited examples of where 
waivers have been granted in much less national interest than 
this instance, and nothing still is done as far as FMS and that 
military pot. But then I gave examples here and cited back in 
September they had asked--or had notified us, they didn't have 
to ask--they notified us that State was going to move forward 
on providing the Colombians and Peruvians and others with 
equipment, and still nothing has been done with that.
    How do you get a handle on this?
    Mr. Busby. Well, I mean, sir, I think you know the answer 
to the question. These are policy issues. These are policy 
determinations. Again, my recommendation for some time has been 
that we need to look at the organization under which we conduct 
counternarcotics--well, our entire drug policy arena, 
everything from treatment to demand reduction to our 
international programs and everything.
    My frustrations, and I worked on this for 15 years or more, 
is that it--the same frustration you have. How do you, in fact, 
get a handle on all of this and really begin to resolve the 
problem? It's a very, very difficult thing to do, the way we 
are currently organized and the way you are currently 
organized.
    That, to my mind, is something that is really worthy of 
some effort on the part of the Congress and the administration, 
how you do this.
    Mr. Mica. One more important thing. Again, I am really 
frightened for this country and for every community, knowing 
what we saw last year, and you were with us on the trip when 
the chairman and others went down to Colombia and we were told 
there were 10,000 hectare acres of poppies under production 
now.
    Is there anything that we can do in this heroin area--and 
now it is starting to stream in. We heard testimony today, 
Ambassador Gelbard talked about the production, but you are 
going to be able to get heroin on the streets of this country 
as cheaply as crack in the near term, and availability is 
dramatically increased, plus use among the most vulnerable, our 
youth.
    Is there anything you can do--now, you have been there. You 
have been to Colombia as Ambassador. You know the situation 
better than anyone. Is there anything you recommend that we can 
do to get a handle on this now?
    Mr. Busby. Sir, I think that the best thing we can do in 
the short term, the best thing we can do, is support General 
Serrano and General Bedoya, begin to work with them. Most of 
that--most of that opium poppy cultivation, it's a very 
organized thing, and the guerrillas are very involved in it. 
The FARC is very involved in the heroin production.
    In the short term, we need to make sure that the aid is 
flowing to these people who are fighting it.
    In the long term, I think we need to take a very hard look 
at our overall policy of how we are conducting our business 
with regard to interdiction, eradication, demand reduction and 
all of that, because that's the long-term solution.
    Mr. Mica. Finally, I guess you would support then that this 
administration, when they come out with their strategy for 
1997, drug policy strategy, that interdiction and eradication 
would be, I guess, included in that agenda, which has been sort 
of cast aside in their past plan?
    Mr. Busby. Well, I must say, I tend to agree with General 
McCaffrey. I think it's a waste of effort to come out with a 
yearly strategy. We ought to have a 10- or 20-year strategy.
    Mr. Mica. It is also--as you well know, it's interdiction, 
it's education, it's treatment.
    Mr. Busby. I was just going to say, I think----
    Mr. Mica. But when it is missing--one of the legs of the 
stool is missing, and you have had that policy, it's time to 
realize that you have got to approach it from all aspects. 
Wouldn't you agree?
    Mr. Busby. Yes, sir.
    I think--I would say two things. One, organizationally we 
need to be able to bring the full power of U.S. capability 
against this problem and do it in a focused way, which I don't 
think we do very well.
    Second, there is no silver bullet to this, and you have to 
do all of it. Any administration that thinks that treatment is 
going to work and we can do away with the interdiction or the 
interdiction is going to work and we can do away with demand 
reduction, simply doesn't understand the problem. You have to 
do all of these things, and you have to do them over some 
extended period of time and destroy the infrastructure by which 
the traffickers have been able to build these empires. That's 
what we should be doing.
    Mr. Mica. Thank you, Mr. Chairman. I yield back.
    Mr. Hastert. I thank the gentleman from Florida.
    To both of you gentlemen, I appreciate, first of all, your 
long endurance this morning to sit through a lot of testimony 
and now enduring it yourself here. But to get through this last 
round, I would like to ask both of you a couple of questions.
    First of all, Ambassador Busby, could you assess previously 
the threat posed to our security by narcotraffickers in 
Colombia? What do you see?
    Mr. Busby. Our security in Colombia?
    Mr. Hastert. Our security here, what happens to this 
country because of the narcotraffickers?
    Mr. Busby. I am sorry? You are talking about what happens 
to the United States?
    Mr. Hastert. Yes.
    Mr. Busby. Well, I admit to being a little bit of a radical 
about that. I think, if you look at the history of the United 
States, you are hard-pressed to come up with a phenomenon that 
has affected us as deeply and adversely as drugs have. I don't 
mean just trafficking. I am talking about the use of drugs, 
everything that surrounds it.
    I think it is, in its purest sense, a real threat to our 
society, not necessarily to the institutions of government or--
drug traffickers are not going to overthrow the U.S. 
Government. But seriously, the deterioration that takes place 
at various levels of our society I think is marked and 
measurable, and therein lies some of the frustration that I 
have in our failure to be able to focus all of the capabilities 
we have to try and bring about some resolution of the problem. 
So I think it's a very clear threat.
    Mr. Hastert. Do you feel that the narcotics assistance 
section at the Colombian Embassy has been effectively 
administrated?
    Mr. Busby. It was--it was certainly effectively 
administrated when I was there.
    I don't know enough about it to really comment on that.
    Mr. Hastert. The drug czar has asked, and this is for your 
opinion, obviously, has asked that maybe he would have 10 
percent flexibility in his budget, that he can act upon that 
budget and implement those funds at his discretion. Do you 
think that would be a positive tool?
    Mr. Busby. Yes, sir, I do. I do.
    Mr. Hastert. Why?
    Mr. Busby. I tend to think that a little more centralized 
control over budget and policy is what is needed.
    Now, again, having said that, I am not so sure that the 
President is ever going to be enabled--is never going to be 
able to empower one Cabinet officer over the other and, 
therefore, Presidential leadership is absolutely essential to 
make it happen. But having some more centralized view of all of 
this, that is not law enforcement, it is not health, it is not 
international but, rather, something else, I think, would be a 
good thing.
    Mr. Hastert. There has been some questions previously today 
trying to compare Mexico to Colombia, and I know that you have 
had some experience in both countries, especially the oversight 
job that you had as Ambassador on terrorism. How would you 
compare General Serrano's record, I guess you would say, of the 
Colombian national police on the counternarcotics efforts 
compared to what's going on in Mexico at the same type of 
level?
    Mr. Busby. Well, the history in Colombia is very, very 
different from Mexico. The Colombians decided back in the early 
1980's that they were going to accept and seek and use United 
States assistance. As a result, the Colombian national police, 
in particular, have been the recipient of a lot of help from us 
which was freely given and which was freely accepted. 
Therefore, the working relationships that we have had 
historically have had their ups and downs but, nonetheless, 
have been very close.
    That is not in any way the case in Mexico. In fact, our 
relationships with the police in Mexico and with the Mexican 
military have been far, far more standoffish, and I think that 
the results clearly speak for themselves.
    We work and have always worked closely with the Colombians. 
I had very high respect for their professionalism and integrity 
when I was there. I think the record with Mexico has been far, 
far more spotty.
    Mr. Hastert. One of the things that General Serrano said, 
and he said it in passing, and I am really sure if anybody 
picked it up, he said one of the most injurious things that has 
happened since the decertification was the inability for--to 
get his men training, to get--in how to do things; and they 
have had that luxury before with the cooperation from the 
United States and, I would imagine, our agencies, DEA, CIA and 
other agencies that do that.
    In your opinion, has President Clinton's decision to 
decertify Colombia on March 1, 1996, had a significant 
detrimental effect on the levels of counternarcotics support 
Colombia is receiving from the United States via the Department 
of State on foreign military sales?
    Mr. Busby. Certainly on foreign military sales because it 
is my understanding that there are restrictions placed on that. 
That's a serious problem, I must say, because you lose IMET, 
the training programs, you lose military assistance, you lose a 
whole lot of things.
    As far as characterizing it as serious or nonserious, and 
so forth, I don't have the figures in front of me. I am not 
really competent to speak to that.
    I have the impression, although it may be anecdotal, that 
that is a true statement.
    Mr. Hastert. Major Messing, before I recognize you for a 
couple of questions, I would like to also recognize, and I see 
him in the audience, another dedicated member of the National 
Defense Council, Gil Macklin. We certainly appreciate him being 
here today.
    Let me ask you one of the same questions. Do you feel that 
the national assistance section at the Colombia Embassy has 
been effectively administered? You have been down there, been 
in the jungles. How do you feel about that?
    Mr. Messing. Well, I agree with Congressman Mica in terms 
of that there's a leadership flaw here. I mean, I go back to El 
Salvador. I had 57 trips in El Salvador between 1982 and 1991, 
and I saw Ambassador Dean Hinton and Ambassador Tom Pickering 
act, and I also worked at the State Department under Ambassador 
Rich Armitage. They would pick up the phone, and they would 
holler into the phone. All of a sudden a C-141 or a C-5A would 
show up and have what the Salvadorians needed or, in the case 
of Rich Armitage, when he was working in the NIS section at 
State, a C-5A would be landing in Russia, you know, chock full 
of medical supplies or whatever was the case.
    The point is that the leadership involved is not providing 
the pressure and guidance, pressure to their people and 
guidance to their people, to get things done.
    You know, this failure results in lives of Colombian 
policemen being lost, and that's later translated into 
additional cocaine on our streets; and it involves collateral 
damage to the United States.
    So, you know, without this enthusiastic, directed 
leadership from Washington, from the Ambassadorial level, from 
the section level, you can't get things done.
    Mr. Hastert. Can I ask you a question then to followup on 
that?
    Mr. Messing. Yes.
    Mr. Hastert. I think I inferred from your answer, and I am 
not trying to put words in your mouth, but are you saying that 
people aren't getting out and doing the job they should do, in 
your opinion, or are they?
    Mr. Messing. Well, there's a whole section in the U.S. drug 
control policy and international operations paper that I gave 
to you a couple of months ago that talks about personnel 
selection. Failure to staff all levels of the drug control 
program correctly virtually foredooms it to failure. You know, 
when you hire a guy who has just been with the Department of 
Agriculture to run a criminal--anticriminal element, who should 
be versed--well versed in anti-narcotics operations and who 
doesn't mind putting on a bulletproof vest and going out to 
Miraflores, and when you hire an agronomist or an agriculture 
guy or whatever, you are not going to have the kind of results 
that you need.
    Fortunately, I heard recently that one of our sterling 
State Department anti-narcotics people is being transferred 
from another country into Colombia, but he won't be there for a 
few months. So you can't have this failure of lack of correct 
personnel selection and expect to have results. I mean, it just 
doesn't work that way.
    You have to have the brightest, the best and the bravest 
that are put into a hybrid team, and this talks about it also--
let's see. There's another section in here. It talks about that 
you have--maybe it's in the recommendations portion. But you 
have to have a hybrid team of gutsy men and women that are 
knowledgeable and experienced to go in and that have the backup 
from the United States to go in there and thwart the drug lords 
and the drug guerrillas. You have to have this kind of 
combination of effort.
    Mr. Hastert. Let me ask you a another question that's very 
similar to the question I asked Ambassador Busby. How do you--
as someone that's been underground in Colombia, how do you 
assess the national security threat, both to Colombia and the 
United States, from narcotraffickers?
    Mr. Messing. Well, it is clear to me. I mean, when you have 
got----
    Mr. Hastert. Let me interrupt you just for a second. I used 
the framework before and I misspoke in addressing the letter 
to--or question to the general, I said civil war. I don't mean 
civil war, but certainly there's a huge war going on between 
two forces. How do you assess that?
    Mr. Messing. Well, again, I have to go back to the dark 
side/light side capitalist example as one of the things. When 
you have dark side capitalist elements that are antidemocratic, 
they are monopolistic, and they are a very small element that 
tries to take control of the country and impact on its 
sovereignty. It's the tail that starts to wag the dog of the 
sovereignty of Colombia, in that regard. Their narcissistic 
enterprises wind up impacting on us on the streets of America.
    Like I said earlier, if you--if this decertification--if 
this certification doesn't come through, even a certification 
with a waiver of some sort, it will translate directly into 40 
to 50 tons of cocaine on your streets, on Congressman Mica's 
city and district, and on the other Members of Congress, where 
you feel the impact. The collateral damage is in an exponential 
way worse than the amount of assistance that you can provide.
    I mean, we are talking $50 billion to $60 billion worth of 
collateral damage to the United States as a result of not 
certifying, not boosting the morale, not giving them the 
equipment they need, not supporting them in the first trench, 
the most inexpensive part of the drug war versus--the border 
versus our neighborhood. I mean, it's almost goofy, it is 
almost goofy not to understand that American interests are 
first.
    There's a part in here that talks about strategy. This was 
written in 1990, because we were critical of the Bush 
administration. The point is that in strategy you have to 
understand the first priority is the war on drugs, and that 
translates into America; and the second is the maintenance of 
the country's democratic institutions.
    Mr. Hastert. To followup on that, we just had a note handed 
to us from our district office that today in Waukegan, IL--
that's not very far from my district--they just had a bust of 
400 pounds of cocaine. That sounds like a tremendous amount of 
drug. But in the whole scheme of things, it's just a very small 
fraction of what comes out of Colombia. But that did come from 
Colombia.
    Mr. Messing. Mr. Chairman, drug dealers just tried to buy a 
Soviet submarine for the transportation of drugs.
    Mr. Hastert. One last question I would like to address to 
you, Ambassador. In your opinion, do we face, I guess to coin a 
phrase, a chemical laundering problem? We had General Serrano 
talking about precursors. We understand that many of these 
products come from places like Germany and Holland and other 
places, but even from the United States, if we can ship--if 
somebody wants to ship a product, tons or thousands of gallons 
of product to Poland or the Bahamas or Germany and then it 
finds its way back to Colombia, is that a problem? If it is, 
how can we start to get a handle on that?
    Mr. Busby. Yes, sir, that is a problem. In the tracking of 
precursor chemicals, I think DEA and FBI both have whole 
sections that do nothing but that.
    It is a very difficult proposition because you are talking 
about a legal commercial product.
    How we get a handle on it? I go back to what I responded to 
Mr. Barr. I think the only way you get a real handle on it is 
to work with the producing countries of those chemicals to put 
some tracking restrictions and end-use restrictions on them, 
and also work with Colombia and other countries that produce 
drugs to track the importation of those kinds of chemicals.
    Mr. Hastert. The question is: How much of that chemical 
comes from this country and goes to other countries?
    Mr. Busby. I don't know. DEA could give you those figures.
    Mr. Hastert. But is it significant?
    Mr. Busby. The impression that I have, and I had it from 
the time that I was in Colombia, is that we have made some 
substantial progress. We, Americans, have made some substantial 
progress on that. We have made no progress in terms of 
chemicals produced in Brazil, Germany, France, places like 
that.
    Mr. Hastert. Thank you very much. I certainly appreciate 
both of you gentlemen being here today. As I said, we have had 
a lot of questions and a lot of answers, and I hope we have 
made some headway, No. 1, in understanding and, No. 2, 
establishing a record, that we need to move forward.
    We need to have better ideas. We need to think outside the 
traditional square to solve this problem. If we didn't have the 
courageous people like General Serrano and others, General 
Bedoya who was here today, and others, we wouldn't even be able 
to get a toehold to solve the problem.
    We appreciate your testimony. This is not the last hearing 
that we will have on this issue. We will continue to work at 
it.
    This hearing of the Subcommittee on National Security, 
International Affairs, and Criminal Justice is adjourned. Thank 
you.
    [Whereupon, at 2:02 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
